U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                INTERNATIONAL TRADE
                     ADMINISTRATION

              The Commercial Service Needs to
                   Improve Management of its
                        Operations in Turkey


       Final Inspection Report No. IPE-15370/March 2003




                            PUBLIC
                            RELEASE



          Office of Inspections and Program Evaluations

U.S. Department of Commerce                                                                                     Final Report IPE-15370

Office of Inspector General                                                                                                March 2003



                                                    TABLE OF CONTENTS


EXECUTIVE SUMMARY .............................................................................................................. i


INTRODUCTION..........................................................................................................................1


OBJECTIVES, SCOPE, AND METHODOLOGY.........................................................................1


BACKGROUND............................................................................................................................3


OBSERVATIONS AND CONCLUSIONS ...................................................................................7


I.         Management of the Post Needs to Be Strengthened..............................................................7

           A. Lack of adequate management oversight contributed to problems in CS Turkey.............7

           B. Personnel policies were not followed for FSN staff .....................................................11

           C.    Administrative assistants in Ankara and Istanbul need current job descriptions .........17

           D.    Post security is a major concern..............................................................................17

           E. Changes made by the new SCO should improve operations and productivity...............19


II. 	      CS Turkey Is Meeting the Needs of Most Customers, but Improvements Are Needed ........21

           A. 	Most customers are satisfied with CS Turkey's products and services, but

                problems exist..............................................................................................................21

           B. 	 Reporting on market research and market developments needs improvement ................24

           C.	 Market-driven products and services face serious decline..........................................28

           D. 	Export successes need better management review.........................................................30


III. 	    Financial Operations and Administrative Matters Are Generally in Order, but

          Some Problematic Areas Need to be Addressed .................................................................40

          A. CS guidelines for representation funds were not always followed ....................................40

          B. Motor vehicle usage did not comply with CS policies.....................................................43

          C. Travel card statements need to be sent to the appropriate supervisors.............................45

          D. Better oversight is needed for Izmir’s petty cash fund.......................................................46

          E. Post actively manages its ICASS participation, but further steps can be taken                                                

         to reduce ICASS charges......................................................................................................47


RECOMMENDATIONS..............................................................................................................50


APPENDIXES
A: Acronyms and Descriptions of Commercial Service Products and Services................................54

B: 	Agency Comments on Draft Report...........................................................................................55

U.S. Department of Commerce                                                       Final Report IPE-15370

Office of Inspector General                                                                  March 2003



                                     EXECUTIVE SUMMARY


Turkey, situated between Europe and Asia, is a crucial U.S. strategic ally in part because it borders
Iraq, Iran, and Syria. Bilateral trade between the U.S. and Turkey reached $6.1 billion in 2001, down
9 percent from an all-time high in 2000. Top U.S. exports to Turkey include commercial and military
aircraft, machinery, cotton, tobacco, medical equipment, and organic chemicals. The only Muslim
country in the North Atlantic Treaty Organization, Turkey is also actively seeking membership in the
European Union.

Turkey has experienced severe economic and political problems in recent years. A serious banking
crisis, in November 2000, along with other economic and political disturbances, shook currency
markets and led foreign investors to pull some $5.0 billion out of Turkish banks. International Monetary
Fund loans have helped to stabilize the economy and, as a condition of the loans, economic reforms are
continuing. The problems with the economy also contributed to the partial collapse of the government
earlier this year, and early elections were held on November 3, 2002.

Despite political and economic uncertainties, there are indications that Turkey’s economy is recovering
better than expected. Economists have revised economic growth forecasts from three to four percent
for 2002. In addition, the Turkish stock market has responded very favorably to the election results.

The Commercial Service (CS) has its 21st largest post operation in Turkey, with a budget of $1.34
million in fiscal year 2002. At the time of our review, the post employed three American officers and 11
Foreign Service Nationals (FSNs). CS Turkey has offices in Ankara (the capital), Istanbul, and Izmir.
The post has a rich and diverse portfolio of programs, including one of the most active advocacy
programs in the Commercial Service to assist U.S. firms in competition for large projects. In addition,
CS Turkey supports a full trade events program to assist small to medium-sized firms. The post is also
the lead coordinator on the energy sector for “Showcase Europe” and has Armenia and Turkmenistan
as constituent posts. We conducted our on-site inspection of the post between September 16 and 26,
2002.

We found that CS Turkey is a post in transition. The new Senior Commercial Officer (SCO) arrived in
Ankara in August 2002, and a new Principal Commercial Officer (PCO) arrived in Istanbul in February
2002. Current economic conditions will require the post to reassess its strategy to better capture export
successes. The post will also be challenged by its need to improve its performance results and standing
in the Commercial Service’s cost-benefit model that reflects agency investments in Turkey. We believe
that CS Turkey’s future success will depend on strong management and administration of the post, both
by the SCO in Ankara and by the Commercial Service’s Office of International Operations (OIO) in
Washington. Our specific findings are as follows:


                                                    i
U.S. Department of Commerce                                                       Final Report IPE-15370

Office of Inspector General                                                                  March 2003



Management of the Post Needs to be Strengthened. Our review found that CS Turkey is a post of
great contrast. While the post was highly praised by members of the diplomatic mission in Turkey, staff
from other ITA offices, and most of its clients for being responsive and results-oriented, we found
numerous problems that hampered post operations, including some untimely and inadequate products and
services, inaccurate performance reporting of export successes, and the inappropriate use of government
funds allocated for official entertainment. In addition, we found that oversight of the post by OIO needs
improvement. Specifically, when OIO managers or staff visit a post in an oversight role, they should
prepare trip reports highlighting what was discussed with the officers and FSNs, which post operations
were reviewed, and any issues or concerns that need attention. Matters requiring follow-up action by the
post and/or headquarters should be tracked until completion. Such oversight was not provided by OIO in
the past few years.

Other issues needing attention include FSN performance appraisals, which were not prepared in a timely
manner, and resulted in delays in within-grade increases by up to a year for some FSN staff. Further, the
administrative assistants in Ankara and Istanbul need job descriptions that accurately reflect the scope and
breadth of the work they actually do. Also, given the post’s location, security is a serious concern. We
have particular concerns about a plan set forth by the State Department to improve security in Ankara.
Finally, security upgrades may be needed in Izmir (see page 7).

CS Turkey Is Meeting the Needs of Most Customers, but Improvements Are Needed. Many of
the clients we spoke with during our inspection were pleased with the post’s efforts to support U.S. trade
and business interests in Turkey. However, upon closer inspection of the post’s products and services,
we found several issues of concern. Specifically, some services and market research products did not
meet the guidelines provided in the Commercial Service Operations Manual. We also found that
reporting on market developments in Turkey could be improved, and the post should be producing more
market research, particularly given the on-going privatization efforts in key sectors such as
telecommunications and energy. Finally, as noted above, CS Turkey’s reporting of export successes, the
Commercial Service’s key performance measure, has been inconsistent, and some reported export
successes are factually inaccurate. Based on our review of a sample of 27 export successes submitted in
2002, we found 8 problematic cases in which the post overstated the value of the success and/or took
credit for a success when CS Turkey was not involved (see page 21).

Financial Operations and Administrative Matters Are Generally in Order, But Some
Problematic Areas Need to be Addressed. Much of CS Turkey’s financial management and
administrative operations that we reviewed are effectively run. For example, collections, inventory, time
and attendance records, budget, and procurements were properly managed. However, we also found
some areas where improvements are needed. Specifically, official representation funds were used for
parties that appeared not to be of an official nature as well as bulk alcohol purchases, which are not
allowed under Commercial Service guidelines. Additionally, it appeared that some inappropriate use of

                                                    ii
U.S. Department of Commerce                                                     Final Report IPE-15370

Office of Inspector General                                                                March 2003



the vehicles occurred. Unfortunately, because the vehicle logs were inadequately maintained, it was not
feasible to determine all uses of the post vehicles. In another case, we found that an officer was
delinquent in paying bills for the government-issued travel card by nearly five months, and the card was
ultimately cancelled. However, the officer’s supervisors were unaware of this problem until we brought it
to their attention. We also found problems with the petty cash fund in Izmir and suggest that there be
improved oversight of the fund by the officers in Ankara. Finally, the post is managing its use of
International Cooperative Administrative Support Services (ICASS) reasonably well, but we were able to
identify a few categories where ICASS costs could be further reduced (see page 40).

On page 50, we offer recommendations to address our concerns.




The Commercial Service concurred with nearly all of our recommendations. Specifically, the Assistant
Secretary and Director General of the U.S. and Foreign Commercial Service’s response to our draft
report stated that “our post and headquarters operations either have taken action on the
recommendations, or have indicated how they will address them. Our answers to each of the IG
recommendations reflect a united US&FCS response that provides you with a comprehensive
Commercial Service approach to all the issues raised in the IG report. We appreciate the report and
the opportunity to strengthen the Commercial Service management team overseas, not only in Turkey,
but in other CS posts as well.”

The Director General’s response outlines many specific actions that have already been taken to
strengthen the Commercial Service’s oversight of its operations in Turkey and to address problems that
we discussed in this report that may be systemic and impact worldwide Commercial Service operations.
 We discuss some of these specific improvements and the Commercial Service’s response to our
recommendations following each section in this report. The Commercial Service did not immediately
concur with and was considering our recommendation that the CS Operations Manual be revised to
explicitly require that all export successes be confirmed with the U.S. client. We request that the
Commercial Service provide an update on actions taken to address this recommendation in its action
plan.




                                                  iii
U.S. Department of Commerce                                                         Final Report IPE-15370

Office of Inspector General                                                                    March 2003



                                                INTRODUCTION

Pursuant to the Inspector General Act of 1978, as amended, and the Omnibus Trade and
Competitiveness Act of 1988, the Commerce OIG periodically evaluates the operations of the
Commercial Service (CS).1 Under these authorities, we conducted an inspection of CS operations in
Turkey.

Inspections are reviews the OIG undertakes to provide agency managers with timely information about
operations. One of the main goals of an inspection is to encourage effective, economical, and efficient
operations. Inspections are also conducted to identify or prevent fraud, waste, and abuse in federal
programs. By asking questions, identifying problems, and suggesting solutions, the OIG helps managers
determine how best to quickly address issues identified during the inspection. Inspections may also
highlight effective programs or operations, particularly if their success may be useful or adaptable for
agency managers or program operations elsewhere.

This inspection was conducted in accordance with the Quality Standards for Inspections issued by the
President’s Council on Integrity and Efficiency. Our fieldwork was conducted from July 22 to
November 15, 2002, with our on-site visit to the post from September 16 to 26, 2002. During the
review and at its conclusion, we discussed our findings with the Senior Commercial Officer (SCO) in
Ankara, as well as the Regional Director for Europe and the Deputy Assistant Secretary for
International Operations at CS headquarters. We briefed the CS Director General and her deputy on
October 17, 2002, and held an extensive teleconference with the former SCO on November 5, 2002.

                             OBJECTIVES, SCOPE, AND METHODOLOGY

Our purpose was to assess the management, program, and financial and administrative practices of CS
Turkey, including its development and achievement of goals and objectives, the economy and efficiency
of the operation, and the post’s compliance with applicable regulations and other managerial guidance.
We also examined the post’s coordination with other organizations in achieving the overall goals of the
International Trade Administration and the Department. Specifically, we sought to determine whether
CS Turkey is:

       �   planning, organizing, and controlling its work and resources effectively and efficiently;
       �   operating effectively, meeting the needs of U.S. exporters, and helping increase exports and
           market access; and
       �   using appropriate internal controls and financial management practices.



1
    The organization is also known as the U.S. and Foreign Commercial Service.
                                                           1

U.S. Department of Commerce                                                        Final Report IPE-15370

Office of Inspector General                                                                   March 2003



We also sought to:

    �   identify “best practices” and innovations that could be useful to other CS posts and operations;
    �   assess CS Turkey's role and participation in trade compliance efforts; and
    �   evaluate infrastructure issues at the post, including information technology, security, and other
        facilities-related matters.

In conducting our inspection, we reviewed strategies and plans developed by the Commercial Service
to increase exports to Turkey. We also reviewed the post’s organizational structure and operating
approaches used in conducting its activities; interviewed appropriate Commerce and State Department
personnel, as well as other U.S. agency personnel involved in trade promotion; examined pertinent files
and records relating to the post’s operations, including financial and administrative issues; and met or
spoke with officials from U.S. and foreign firms and trade associations. We also interviewed a sample
of clients by e-mail and telephone concerning their evaluation of and satisfaction with the post’s
products and services.




                                                    2

U.S. Department of Commerce                                                                Final Report IPE-15370

Office of Inspector General                                                                           March 2003



                                               BACKGROUND

                                 Turkey, the world’s 27th largest economy, has a population of 67.8
                                 million and a landmass slightly larger than Texas. Situated between
                                 Europe and Asia, and bordered by Iraq, Iran and Syria, Turkey is a
                                 crucial and strategic U.S. ally. It is the only Muslim country in the North
                                 Atlantic Treaty Organization (NATO), and is a founding member of the
                                 World Trade Organization (WTO). Turkey is actively seeking
                                 membership in the European Union (EU), but has yet to be
admitted. The country’s recent economic woes have not bolstered its standing with EU members,
especially since Turkey experienced a 9.4 percent drop in its gross national income (GNI) in 2001.2
Loans from the International Monetary Fund have brought some stability and prompted continuing
economic reforms. However, austerity measures imposed as a condition of the loans, such as the
cancellation of Turkish Treasury guarantees required for international financing, have delayed or
cancelled many large government projects. The economic crisis also contributed to a partial collapse of
the government, forcing early elections on November 3, 2002.
Despite political and economic uncertainties, Turkey’s
economy is recovering better than expected in 2002.
Economists have revised the country’s economic forecast                           Key Statistics
from three to four percent growth by the end of the year.                              2001
Economic recovery is expected to be spurred by deregulation              GNI                $168.3 Bil.
of key industrial sectors, particularly energy and                       GNI Per Capita    $2,540
telecommunications. Turkey’s young and growing population,               US Exports         $3.09 Bil.
which is one of the largest in Europe, and a robust                      US Imports         $3.05 Bil
underground economy3 should further fuel the recovery.                   Population         67.8 Mil.
However, any potential conflict in the region, particularly with         Unemployment      10.6%
                                                                         GNI Growth        -9.4% (2001)
Iraq, could lead to regional instability and derail Turkey’s
                                                                                           +4% (2002)
hopes for a full economic recovery. While some business                  Underground       Estimated at 30
sectors could grow as part of a war mobilization and recovery              Economy         to 40% of GNI
effort involving Iraq, most Turkish officials fear consequences          Total Area        780,580 sq km
similar to those that resulted in a huge loss of tourism revenue
following the 1991 Persian Gulf War.


2
  US Department of State, 09/02, Background Notes: Turkey; The World Bank has changed the term “Gross National
Product (GNP)” to “Gross National Income (GNI).” See World Bank Website
www.worldbank.org/data/changinterm.html, November 2002.
3
  Experts agree that Turkey’s underground economy is a significant portion of current GNI, but disagree on its size,
which some experts say accounts for as much as 30 to 40 percent of GNI. Sources: Fethi Ogunc, Estimating the
Underground Economy in Turkey, Central Bank of Turkey, September 2000; Melih Dogan, Erbakan’s Turkey: Ready
for Business; Middle East Quarterly, June 1997, Volume 4-2.
                                                         3

U.S. Department of Commerce                                                                  Final Report IPE-15370

Office of Inspector General                                                                             March 2003



Turkish Trade and Investment

Turkey is the 33rd largest export market for the United States. In 2001, U.S.-Turkey bilateral trade
reached $6.1 billion, down 9 percent from an all time high in 2000. U.S. exports totaled $3.09 billion
while its imports from Turkey were $3.05 billion. Top U.S. exports to Turkey include commercial and
military aircraft, machinery, cotton, tobacco, medical equipment, and organic chemicals.4

The United States is Turkey’s fourth largest supplier, holding an 8 percent import market share in 2001.
 U.S. high-tech products, whether commercial or military, have been particularly competitive, but EU
products have dominated Turkey’s market. Most EU industrial products enter Turkey duty-free
because of the customs union that was formed with the EU in 1996. However, U.S. companies have
also benefited, as average tariffs on non-EU industrial products dropped by 50 percent when Turkey
formed the customs union.

According to Turkish and U.S. sources, the United States was also the fourth largest investor in Turkey
in 2001, after France, Holland and Germany. 5 Total cumulative U.S. direct investment in Turkey in
2000, according to Commerce’s Bureau of Economic Analysis, was nearly $1.4 billion. 6

Commercial Service Operations in Turkey

The Commercial Service’s post in Turkey is its 21st largest, in terms of dollars, with a fiscal year 2002
budget of approximately $1.3 million. This figure includes American officer salaries, International
Cooperative Administrative Support Services (ICASS) costs, Foreign Service National (FSN) salaries,
office and residential leases, and direct program support. The post has concentrated its resources in
two locations—Ankara (with two officers and five FSNs) and Istanbul (one officer and five FSNs), but
it also has a presence in Izmir (one FSN). CS Turkey is organized under the Office of International
Operations’ (OIO) Europe region and is managed by a Regional Director located in Washington.




4
  US Census Bureau, US Trade Balance with Turkey, see www.census.gov/foreign-trade/balance, last revised
October 10, 2002.

5
  Turkish Embassy in the US, US Investments in Turkey, www.turkishembassy.org/businesseconomy ; last revised 

June 16, 2002. Unofficial estimates place the US as the top investor in Turkey. 

6
  Prior to the signing of a bilateral tax treaty in 1998, much US origin capital was invested in Turkey through third-

country subsidiaries, U.S. Department of Commerce, 2002 Country Commercial Guide (Turkey), 2002. Information 

on U.S. direct investment for 2001 is not yet available.

                                                           4

U.S. Department of Commerce                                                      Final Report IPE-15370

Office of Inspector General                                                                 March 2003





CS Turkey, which has a wide and diverse portfolio, provides a variety of services to American firms
interested in the Turkish market, as well as Turkish firms seeking U.S. products and services. It has an
active trade events program to support small to medium-sized firms seeking to export to Turkey. It also
provides advocacy on high-dollar government tenders, usually to large companies. The Department of
Commerce’s advocacy program supports U.S. firms by ensuring that U.S. bids are given full and fair
consideration on international project tenders. Advocacy has been one of CS Turkey’s most active
portfolios, but recent government austerity measures, which have limited the number of viable
government projects, will require the post to change its strategy to capture export successes. However,
Turkish military tenders for hardware and equipment will continue to provide U.S. firms with high-dollar
opportunities.


                                                   5

U.S. Department of Commerce                                                                    Final Report IPE-15370

Office of Inspector General                                                                               March 2003



CS Turkey has the lead on the energy sector for “Showcase Europe,” which is a regional initiative that
coordinates the services and activities of Commercial Services offices throughout Europe and the Baltic
Rim states, Russia, and the independent states that were formerly part of the Soviet Union. The
Showcase Europe initiative is based on the concept of approaching Europe as a single regional market.
To increase effectiveness, resources are pooled to coordinate foreign business and government
participation in U.S.-sponsored trade events and pavilions throughout the region. CS Turkey also has
responsibility for the Department of Commerce’s Afghan reconstruction initiative and the Appalachian
Turkish Trade Project, which is part of the Department of Commerce’s Rural Export Initiative. Finally,
Armenia and Turkmenistan are constituent posts, meaning the SCO in Turkey has responsibility for the
Commercial Service operations in those countries.7 In Armenia, there is one Commercial Service FSN
who reports to the SCO in Ankara, and in Turkmenistan, the SCO works with the State Department’s
economic officer assigned to Ashgabad, the capital.

Measuring Post Performance

The Commercial Service uses an Overseas Resource Allocation Model (ORAM) and a cost-benefit
model to evaluate each post’s performance. The ORAM takes into account many quantitative factors
such as mission requirements, workload, market share and barriers, and per capita gross domestic
product. The number of constituent posts managed by a Senior Commercial Officer (SCO) is also
considered. These factors are evaluated to derive a country cost-benefit ratio, which also takes into
account the benefits (i.e., export successes) divided by the variable costs of operating the post. This
ratio is calculated using a three-year rolling average. Based on the cost-benefit ratio, the Commercial
Service ranks each overseas post and then, for ease of analysis, divides them into five groups, or
quintiles. CS Turkey ranked in the fourth quintile for fiscal year 2001, which is one quintile below
where it should be performing according to the ORAM.




7
 In addition, during the last five years, the SCO in Turkey also had responsibility at one time or another for a third
partnership post, Georgia, as well as Uzbekistan and Azerbaijan, which had staffing gaps in 1999-2000.
                                                           6

U.S. Department of Commerce                                                        Final Report IPE-15370

Office of Inspector General                                                                   March 2003



                              OBSERVATIONS AND CONCLUSIONS


I.      Management of the Post Needs to Be Strengthened

CS Turkey is a post of great contrast. On one hand, the ambassador and the consul general in Istanbul,
and other elements of the U.S. diplomatic mission in Turkey, gave the post and its staff high marks for
being responsive, cooperative, and easy to work with. Staff in other ITA offices, such as Market
Access and Compliance and Trade Development, as well as the U.S. business community, echoed this
praise.

In contrast, our review of the post’s operations, revealed an office that has suffered in recent years from
insufficient management oversight and internal control, which were reflected in a number of deficiencies.
 The problems resulting from inadequate management of the post, by both the former SCO and by OIO
managers in Washington, are discussed in more detail throughout this report. We found that internal
controls for key financial and administrative operations were inadequate. We also questioned the
effectiveness and reporting of certain post products and services, including inaccurate reports of export
successes.

Other management deficiencies include the fact that personnel policies were not always followed for the
FSN staff. For example, FSN performance appraisals were not prepared in a timely manner and, as a
result, within-grade increases were delayed for some FSN staff by up to a year. Furthermore, while
work plans and job descriptions were in place and current for most FSN staff, we found that the
administrative assistants in Ankara and Istanbul need job descriptions that more accurately reflect the
scope and breadth of the work they actually do. Also, given the post’s geographic location, security is
a serious concern and we found that some security upgrades are needed in Izmir and planned security
upgrades in Ankara still need to be finalized.

The new SCO arrived at the post in early August 2002, and he has taken steps to strengthen the
management of the office. We are hopeful that many of the changes that the new SCO has put in place
will improve operations and increase productivity. However, he will need to carefully mold a cohesive
and supportive management team and staff to carry out his agenda for the post. Washington
headquarters’ oversight will be a critical part of the equation for success, and managers there must also
provide effective leadership and oversight.

A.      Lack of adequate management oversight contributed to problems in CS Turkey

During our visit, we noted that the post management did not (1) adequately oversee CS Turkey’s
products and services (see page 21 and 24), (2) manage the post’s export success program (see page
30), and (3) adhere to Commercial Service and/or State Department guidelines for the use of

                                                    7

U.S. Department of Commerce                                                       Final Report IPE-15370

Office of Inspector General                                                                  March 2003



representation funds and government vehicles (see pages 40 and 43). In summary, and as will be
discussed in more detail throughout this report, the former SCO did not provide sufficient leadership
and management oversight to the staff in order to ensure that post operations were effective and
efficient.

Responsibility for these deficiencies also lies with OIO management in Washington. Although OIO
managers advised us that they did not know about many of the problems we found, they were aware of
or suspected some of the problems, such as possible personal use of government vehicles. However,
they never fully investigated or dealt with them. For example, the current Regional Director for Europe
visited Turkey once in 2001 and once in 2002 and suspected that there were problems. But, he never
documented those problems in trip reports, because he claims that they were not required at the time,
nor did he communicate them verbally to the Deputy Assistant Secretary for International Operations.
In fact, the SCO’s performance appraisal, covering the period June 1, 2001, to May 30, 2002, made
no mention of problems. Rather, it discussed his impressive performance and recommended that the
SCO be given serious consideration for promotion.

The former SCO told us that he received no notification from management over the past year of any
concerns about his performance or that of the post. His prior year’s appraisal (October 1, 2000, to
May 31, 2001) did mention some concerns, many of which the former SCO took issue with in his
comments on the appraisal. However, the appraisal made no mention of what we consider to be the
post’s biggest deficiency in fiscal year 2000—its lack of reported export successes (see page 30).

We recognize that the Regional Directors, and OIO in general, oversee many posts from a distance.
Under such conditions, it is difficult to stay fully apprised of post operations and staff activities.
However, the current Regional Director for Europe visited CS Turkey twice, most recently in May
2002 for the European Region SCO Conference. Other regional staff also made several trips to the
post. In addition, all posts must report to Washington on a regular basis, so problems with core
products and export successes in Turkey could have been caught without a site visit. Unfortunately,
neither management’s trips and suspicions nor the spotty performance evident in the reports from the
post prompted anyone to document or deal with problems or concerns raised regarding CS Turkey.

Inadequate oversight is but one area that OIO needs to improve. Another is its development and
training of SCOs and other senior officers. Specifically, we believe that OIO did not provide the former
SCO with the types of assignments and training earlier in his career that might have given him the
knowledge and tools to prevent many of the problems identified in this report. We were told that he
took on several difficult assignments prior to serving in Turkey. But, in being allowed to do so, the
former SCO was not afforded the opportunity to serve under more seasoned officers to learn and
master the basics of managing a CS post before being assigned as an SCO. Additionally, the former
SCO was not required to take much administrative and management training during his nearly 13-year

                                                    8

U.S. Department of Commerce                                                         Final Report IPE-15370

Office of Inspector General                                                                    March 2003



career with the Commercial Service. In fact, during his entire 5-year tour in Turkey, he took only one
training course—a 2-day seminar entitled “Equal Employment Opportunity and Diversity Awareness for
Managers and Supervisors.” We believe that such deficiencies in officers’ knowledge and experience
are indicative of a larger and more serious problem, which is systemic to the process the Commercial
Service uses to develop and train foreign commercial service officers. For example training and
development efforts appear haphazard, and many times, the training an officer receives is determined
more by the availability of courses rather than the needs of the officer. In addition, officers’
performance plans generally do not discuss training needs.

Clearly, Commercial Service management should give more careful consideration to the strengths and
weaknesses of each officer and the types of training each might need to strengthen his or her
management and administrative abilities. We recognize that the exigencies of the service often require
that officers be sent out to a post with little or no notice. However, OIO does a disservice to its officers
and the diplomatic missions abroad if it does not do all it can to adequately prepare its officers to do
their jobs successfully. That being said, the ultimate responsibility for sound management and effective
guardianship of government resources at a post rests with the SCO. At any time, the former SCO in
Turkey could have referred to the CS Operations Manual, which is available online, for guidance,
taken available management training online, or asked for any other training he felt he needed.

In sum, the Commercial Service must do a better job of recognizing, documenting, and finding remedies
for problematic post operations. For this reason, we are recommending that OIO managers and staff
who visit a post prepare trip reports that detail what was discussed with the officers and FSNs, which
post operations were reviewed, and any issues or concerns that need attention. Visiting OIO personnel
should also discuss any serious issues they identify with the SCO and/or other responsible post officers,
as well as document these matters in officer performance appraisals, if warranted. Matters requiring
follow-up action by the post and/or headquarters should be tracked until completion.

In addition, the Commercial Service needs to ensure that officers assigned to SCO positions, no matter
how small the post, are adequately prepared for their assignments. Thus, we recommend that OIO (1)
provide its junior officers with assignments that will foster their development into well-rounded senior
officers, (2) require officers to attend as much training as necessary, in particular managerial and finance
and administrative training, prior to being sent out to serve as an SCO, (3) include training requirements
in officers’ performance plans to ensure that necessary training is taken, and (4) consider creating a
mandatory online training course on the basics of managing a post, with components on programmatic,
financial, and administrative matters. The online course should include a quiz and a printable completion
certificate that would be kept in the officer’s file. Thus when classroom training is not available at the
time an officer is assigned to a post, he or she at least would have access to some basic information that
might prevent management problems later.


                                                     9

U.S. Department of Commerce                                                         Final Report IPE-15370

Office of Inspector General                                                                    March 2003



We are pleased to note that OIO, after being briefed on our initial review results, took some immediate
steps to improve its managerial control and oversight of overseas posts. It developed a checklist for
OIO managers and staff to use when visiting a post to ensure that key items are discussed and/or
reviewed, and documented. In addition, OIO has developed a self-certification form that SCOs will be
required to sign, attesting to their completion of certain important managerial duties or tasks, such as the
preparation of FSN performance appraisals. We believe that these actions are positive steps toward
strengthening the Commercial Service’s oversight of overseas posts, and we look forward to further
improvements as the bureau implements our other recommendations.




In responding to our draft report, the Assistant Secretary and Director General of the U.S. and Foreign
Commercial Service stated that with respect to Commercial Service’s European operations, the Service
is considering dividing the region into two smaller and separate regions. The current Regional Director
for Europe oversees 34 SCOs and 44 country operations, approximately double that of the other three
OIO regions. The Director General believes that the Europe region is too large for any one Regional
Director to oversee and that a separation of the region would lead to a better organized and more
manageable operation. We agree with the Director General and would support such a split of the OIO
Europe region.

The Director General further stated that OIO has taken immediate action by requiring mandatory trip
reports be written by OIO country managers for each post visit. We would like to see this requirement
broadened to also include Regional Directors and the Deputy Assistant Secretary for International
Operations. Additionally, we would like to see this requirement formalized through inclusion in the CS
Operations Manual. We would appreciate the Commercial Service addressing this issue in its action
plan.

With regard to our recommendation on training, the Director General stated that in fiscal year 2002,
OIO conducted a new SCO training course that included administrative and financial management
elements. Additionally, she noted that OIO developed a training matrix that identifies specific
mandatory and recommended courses for officers at various stages of their careers. The Commercial
Service also recognizes the problem with junior officers not receiving the training, mentoring, and
developmental assignments necessary to allow them to develop into well-rounded senior officers. To
help correct the problem, additional junior officer slots at multi-officer posts were created in 1998,
bringing the total of such positions to 29. Also, the Director General reported that the Commercial
Service’s assignments panel has been taking steps to minimize the assignment of less experienced
officers to jobs above their grade levels. For example, occurrences of so-called “stretch” assignments
were reportedly down by 28 percent between 2001 and 2003, for FS-03 level officers.


                                                    10

U.S. Department of Commerce                                                          Final Report IPE-15370

Office of Inspector General                                                                     March 2003



Further, the Director General indicates that the Commercial Service has established an Office of
Professional Development that will track employees’ completed training and compare that to
recommended courses for their grade and level of responsibility. Finally, the Office of Professional
Development is in the process of completing the development of a new “administration management”
course. Commercial Service plans call for two modules to be implemented in the fourth quarter of fiscal
year 2003 that are specifically designed for (1) officers managing administrative operations at post and
(2) SCOs with administrative management and operations responsibility. According to Commercial
Service plans, these courses will eventually be offered via the Commercial Service College—the
Service’s online learning center.

We are encouraged by the Commercial Service’s reported actions to improve officer training. We
believe that increased focus and attention on providing appropriate training for officers, based on where
they are in their career, is key to improving the management and operations of all Commercial Service
posts. However, the recommendation about including training requirements in officers’ performance
plans to ensure that necessary training is taken was not addressed in the Commercial Service’s response
to our draft report. In addition, it was not clear whether the “administration management” course is to
be mandatory for SCOs, as we suggested. We request that these issues be addressed in the
Commercial Service’s action plan.

B.      Personnel policies were not followed for FSN staff

Management and supervision of the FSN staff are an important part of the SCO’s and PCO’s
responsibilities and are critical to ensuring that the staff are doing the work necessary to meet the goals
and objectives set forth in the post’s Strategic Commercial Plan. An essential tool for providing
feedback on employee performance is through the performance appraisal process. Unfortunately,
former post officials did not follow many personnel policies for the FSN staff. Specifically, the former
SCO and former PCO in Istanbul did not complete performance appraisals in a timely manner for some
FSNs. As a result, within-grade increases for some staff were delayed, in one case by as long as 12
months. Although the staff eventually received their pay increases retroactively, the lack of attention to
the timely preparation of performance appraisals is unfair to the FSNs.

Performance appraisals were not prepared in a timely manner

The Foreign Affairs Handbook, Section H-135.5, requires American officers to prepare annual
performance appraisals for all FSNs. According to the Handbook, the Department of State’s
personnel officer at post establishes policies for FSN appraisals, in consultation with other post officials.
 These policies are then publicized so that all post personnel, supervisors, and employees know them
and can ask questions if they are not clear. The personnel officer provides supervisors of FSN


                                                     11

U.S. Department of Commerce                                                        Final Report IPE-15370

Office of Inspector General                                                                   March 2003



employees with the forms, notifies them of due dates, and reviews all FSN performance appraisals to
ensure that the performance rating is supported adequately by the supervisor’s narrative summary.

The rating official—in the case of CS Turkey, the SCO or PCO—is responsible for the work of, and
gives assignments to the staff. Specifically, the officers must:

    �   at the beginning of the rating period, explain to each employee the duties of the position and
        requirements for satisfactory performance,
    �   discuss strengths, weaknesses, and ways to improve performance with the employee,
    �   give recognition for superior performance, and
    �   take appropriate action when the employee’s performance is substandard.

Further, the Handbook states that performance evaluation is a continuing process and an integral part of
any supervisor’s responsibilities. Periodic performance reviews help supervisors to clear up any
misunderstandings about their expectations, recognize ability and point the way to developmental
training, and build a strong relationship based on mutual confidence.

The former SCO was responsible for preparing appraisals annually for the five FSNs in Ankara, as well
as the FSN in Izmir. While he could have delegated this responsibility to the commercial attaché, for
various reasons, he chose not to. Therefore, the SCO was directly responsible for preparing six
appraisals annually. However, four of the six appraisals he completed in 2002, right before he left post,
covered a time period of over three years because he had not done the required annual appraisals for
those persons. In Istanbul, the former PCO was responsible for writing performance appraisals for the
five FSNs under his charge. However, he too was not always timely in his submission of performance
appraisals. In fact, he left post in April 2001, without completing the necessary performance appraisals
for his staff. Thus, the former SCO ended up preparing appraisals for the Istanbul FSNs in October
2001, and again in 2002, immediately before his departure from post. Table 1 contains a summary of
performance appraisals for the FSNs.




                                                   12

U.S. Department of Commerce                                                             Final Report IPE-15370

Office of Inspector General                                                                        March 2003



Table 1: Summary of CS Turkey FSN Performance Appraisal Submissions
FSN                  1999                 2000                 2001                  2002
Ankara 1             Completeda           Delinquent           Delinquent            Completedc
Ankara 2             Completeda           Delinquent           Delinquent            Completedc
Ankara 3             N/Ad                 Completed            Delinquent            Completedb
Ankara 4             Delinquent           Delinquent           Delinquent            Completedc
Ankara 5             Delinquent           Completedb           Delinquent            Completeda
Izmir 1              Delinquent           Delinquent           Delinquent            Completedc
Istanbul 1           Completed            Completed            Completed             Completed
Istanbul 2           Completed            Delinquent           Completedb            Completed
Istanbul 3           Completed            Delinquent           Completedb            Completed
Istanbul 4           Completed            Completed            Completed             Completed
Istanbul 5           Completed            Completed            Completed             Completed
Source: FSN Personnel Files located in the State Department Personnel Office, U.S. Embassy Ankara
a
  Appraisal covered more than a two-year period
b
  Appraisal covered mo re than a one-year period
c
  Appraisal covered a three-year period or more
d
  Employee began employment with the Commercial Service in 2000

According to the embassy personnel officer, the personnel office sends notices to American officers 30
days prior to appraisal due dates. We reviewed each FSN’s personnel file and found repeated
delinquent notices sent from the personnel officer and the Administrative Counselor to the former SCO
to remind him of his responsibility to prepare the appraisals. In response to these notices, the former
SCO wrote back to the embassy personnel office, “I have unfortunately not been able to write
appraisals for my staff given my hectic schedule.” Further, the SCO wrote in these memos that the
overdue appraisals would be submitted shortly. Despite these responses, the former SCO did not
submit many of the overdue performance appraisals until immediately before his departure from post.
Similar reminders were sent to the former PCO to notify him of the delinquent performance appraisals
and his obligation to complete them. In addition, the current PCO was responsible for preparing one
FSN evaluation since her arrival at post. However, based on information we obtained from the
Consulate personnel office, the PCO was a few weeks delinquent in completing this evaluation. When
we discussed this issue with the PCO, she stated that she knew that evaluations are to be prepared
annually, however she was overwhelmed with other tasks and prepared the evaluation as soon as she
could.

Within-grade increases were delayed as a result of delinquent performance appraisals

Within-grade increases, or salary increments, within each grade of the salary schedule, are provided to
reward employees financially for satisfactory performance and length of service. Within-grade

                                                      13

U.S. Department of Commerce                                                            Final Report IPE-15370

Office of Inspector General                                                                       March 2003



increases, as provided in the local compensation plan, are mandatory if performance standards are
met. An employee’s work must be of “an acceptable level of competence” in order for the employee to
be eligible for an increase.

Because post managers did not prepare performance appraisals for the FSNs in a timely manner, many
within-grade increases were delayed—for some FSNs, each annual within-grade increase was delayed
for four consecutive years. As shown in Table 2, 7 of the 11 CS Turkey FSNs were impacted by this
problem. The remainder were at the top of the pay schedule for their grade and thus were ineligible for
step increases. While the FSNs did eventually get paid retroactively for their step increases, every one
of them told us that they would have much preferred receiving their step increases when they were due.


    Table 2: Delayed FSN Within-Grade Increases
       FSN Increase Due                 Increase Effective             Months Late
           Date                         Date
        1  June 1998                    March 1999                            9
           April 2000                   January 2001                          9
           April 2001                   January 2002                          9
           April 2002                   August 2002                           4
        2  June 2001                    January 2002                          7
           June 2002                    July 2002                             1
        3  October 1999                 March 2000                            5
        4  October 1998                 February 1999                         4
           January 2001                 January 2002                         12
        5  August 2000                  January 2001                          5
           January 2002                 April 2002                            3
        6  May 1998                     July 1998                             2
           May 1999                     July 1999                             2
           May 2000                     February 2001                         9
        7  July 1998                    September 1998                        2
           July 1999                    September 1999                        2
           July 2000                    February 2001                         7
           July 2001                    October 2001                          3
    Source: FSN Personnel Files located in the State Department Personnel Office, U.S. Embassy Ankara


Again, the embassy personnel office and Administrative Counselor sent repeated reminders and notices
to the former SCO and former PCO asking for performance appraisals so that within-grade increases
could be processed. Specifically, the personnel office memos stated, “no action authorizing the within­
                                                      14
U.S. Department of Commerce                                                      Final Report IPE-15370

Office of Inspector General                                                                 March 2003



grade increase can be taken until the performance appraisals are received.” In response to some of
these notices, the former SCO asked the former commercial attaché to write a memo requesting that the
personnel office process the within-grade increases for two FSNs because the FSNs’ work was
satisfactory. The embassy personnel office did take action based on this memo from the former
commercial attaché. Lastly, staff in the personnel office told us that for other FSNs, they resorted to
sending the former SCO a memo that would merely require him to check a box to state whether an
employee’s performance was satisfactory. According to the personnel office staff, this was truly a last
resort and was not standard practice, but was necessary to prevent further delays in processing step
increases for the Commercial Service’s FSNs.

Based on our observations and discussions with the former SCO, OIO headquarters staff, and other
mission employees, it appears that CS Turkey’s FSN staff is highly dedicated, experienced, and
knowledgeable. Therefore, they should be recognized for their efforts and accomplishments. The lack
of timely performance appraisals and the subsequent delays in payment of step increases is not a good
way to manage and motivate employees. When we discussed this issue with the former SCO, he stated
that he knew about the requirement for annual performance appraisals. He explained that he was also
aware that delinquent performance appraisals often resulted in delayed within-grade increases.
However, although he believed that the FSNs deserved recognition and better treatment, he allowed
other tasks at post to take priority.

To remedy this situation, we recommend that OIO remind the former CS Turkey officers, as well as all
SCOs and PCOs, of the importance of following personnel policies and their responsibility to complete
FSN performance appraisals when they are due. The self-certification form, as discussed in the
previous section, should help ensure that FSN appraisals get done by forcing SCOs to certify that they
have completed them. OIO, of course, will need to monitor completion of those forms and take
corrective action when officers do not carry out their responsibilities. In addition, OIO staff should
check with each post’s personnel office on an annual basis to verify that all FSN performance appraisals
have been submitted and ask if there are any other personnel issues involving the post. The new SCO
has already implemented a tracking system (in addition to the mission’s tracking system) to remind him
when appraisals are due. We recommend that the current PCO in Istanbul also track appraisal due
dates and prepare appraisals when they are due.

Lack of appraisals may have contributed to inadequate training and awards

In addition to supporting step increases for eligible FSNs, performance appraisals also serve as the
foundation of employee development. According to the Foreign Affairs Handbook, supervisors are
responsible for training and developing employees to help them improve their job performance and
reach their full potential. During our review, we asked each CS Turkey employee questions about
training. Nearly every FSN stated that they needed additional training to improve their job

                                                  15

U.S. Department of Commerce                                                       Final Report IPE-15370

Office of Inspector General                                                                  March 2003



performance, particularly in the area of computer software programs such as word processing,
presentations, spreadsheets, and e-Menu. Their requests for additional training seemed reasonable and
directly related to their Commercial Service jobs.

To address employee training concerns, the new SCO asked each FSN to complete a “Training Needs
Assessment Survey” to identify areas for additional training. It includes training in the following
categories: software, market research, interpersonal communication, writing skills, and administrative
and financial management. Further, the current SCO will continue to allow two hours per week for
FSNs to complete on-line training they believe is relevant to their job, a practice begun under the former
SCO. The FSNs told us that they are very encouraged by the current SCO’s training and development
policy and believe it will improve their job performance.

Regarding performance awards, during his five-year tour in Turkey, the former SCO did not nominate
any FSNs for cash awards, although he did do the work necessary to secure promotions for several
FSNs in both Ankara and Istanbul. He also secured (1) a Department of Commerce Bronze Medal
Award for the entire staff in 1999, to recognize the staff’s outstanding efforts in supporting regional
work and (2) an award for three CS Turkey staff members for their assistance during the President’s
November 1999, visit to Turkey. As per policy, cash did not accompany these two awards. We
recognize that cash awards are not mandatory, but they are a management tool to reward good work
and also motivate employees. The former SCO told us that he feels badly that he did not secure cash
awards for his staff and that several FSNs deserved such recognition for their work. He commented
that, in lieu of cash awards, he did his best to verbally recognize good work in his staff when he saw it
and also give non-monetary awards when appropriate. For example, for their help in planning the SCO
conference in May 2002, the staff was recognized with certificates at the conference.

During the first month of his tour in Turkey, the new SCO nominated five FSNs for cash awards based
on their achievement in meeting specific performance goals in the previous year. He also implemented a
policy that cash awards will be considered annually for the FSNs with the most export successes, as
well as two awards for administrative work. Although the mission policy states that awards may only be
given every other year, the new SCO sought an exception for the Commercial Service FSNs. During
our visit, the FSN staff commented that they were encouraged by the recent awards. While CS Turkey
is now making use of the performance award system, we suggest that OIO reiterate to all SCOs and
PCOs the importance of following personnel policies, including the policy of recommending deserving
staff for awards when appropriate.




In her response, the Director General noted that OIO has developed and implemented a new SCO 

Administrative Certification to help SCOs better manage their posts. This Certification form requires 


                                                   16

U.S. Department of Commerce                                                          Final Report IPE-15370

Office of Inspector General                                                                     March 2003



the SCO to certify that all appraisals are complete and work plans are in place on a semi-annual basis. 

The Director General also indicated that OIO staff would verify these certifications during site visits. In 

addition, the need to complete performance appraisals will be included in the periodic notices that OIO 

issues during the year to remind SCOs of their key responsibilities. 

We believe that the Commercial Service’s actions on the rest of our recommendation, as outlined in its 

response, meet our intent. 


C.      Administrative assistants in Ankara and Istanbul need current job descriptions

Work plans for staff are in place and are current. Job descriptions are also current, except for the two
administrative assistants, one in Ankara and one in Istanbul. Both are still classified as secretaries, but
each has taken on much additional responsibility in recent years. For example, between the two of
them, they handle nearly all of the financial and administrative tasks to ensure the smooth operation of
the post. In addition, both have responsibility for several smaller sectors, such as jewelry, household
consumer goods, and toys/games. For the most part, the job descriptions currently in place do not take
into account the scope and breadth of the work actually done by the administrative assistants.
Therefore, we recommend that the SCO work with the commercial attaché and PCO to complete new
job descriptions for the two administrative assistants to reflect their current duties and responsibilities
and submit them to the embassy’s Human Resources Officer for review and classification. To that end,
during our visit, the commercial attaché had already prepared a draft position description for the
administrative assistant in Ankara. However, the PCO has yet to do the same.




According to the Commercial Service’s response to our draft report, the new SCO has already
submitted the revised job description for the Administrative Assistant position in Ankara to the
embassy’s Human Resources Officer for review and classification. Further, the PCO in Istanbul
submitted a revised job description for the Administrative Assistant position in Istanbul to the
consulate’s Human Resources Officer on December 30, 2002. The Commercial Service’s actions meet
the intent of our recommendation.

D.      Post security is a major concern

The State Department is responsible for the security of the CS Turkey staff and offices in both Ankara
(because it is located within the embassy compound) and in Istanbul (because it is within the consulate
grounds). In Ankara, the Commercial Service is on the first floor of an annex building on the embassy
compound that is adjacent to a public street. Other occupants of the building are Agriculture, the
Caspian Finance Center, the Drug Enforcement Administration, and the embassy health unit. There
have been times, in particular during a nearly three-month stretch in the summer of 2001, when security

                                                     17

U.S. Department of Commerce                                                          Final Report IPE-15370

Office of Inspector General                                                                     March 2003



threats prompted State’s Regional Security Officer to order the Commercial Service to move out of the
annex and share space with other tenants closer to the middle of the compound. Of course this is
disruptive to operations, but it is also unnerving to the staff to be working under such conditions.

During our visit, a team from the State Department’s Overseas Building Operations (OBO) office in
Washington was also in Ankara to assess the security situation of not only the annex
building where the Commercial Service is located, but several other buildings both inside and outside the
embassy compound. In early November 2002, the OBO team recommended that security
enhancements be made to the annex building to make it more secure.

We are concerned that the plan set forth by OBO will drastically reduce the amount of office space
allocated to the Commercial Service. It calls for reorganizing the offices to put six staff members in the
space now occupied by three. It does not address the fact that CS Turkey currently has seven staff
members on board in Ankara. The cramped conditions, the inability to have private meetings (the SCO
would be the only one with a private office), and the lack of storage for files, will almost certainly affect
productivity. For these reasons, we recommend that Commercial Service headquarters petition OBO
to reconsider its plan and research other options for improving the security of the annex building in
Ankara.
                                                           Exhibit A: New U.S. Consulate in Istanbul
The consulate compound in Istanbul is located on the
corner of two public streets, with CS Istanbul in the
annex building that is right on the corner. Given the
precarious situation of the Istanbul consulate, OBO
decided to build a new consulate several years ago.
The new consulate is almost complete (see Exhibit
A) and plans call for the Commercial Service staff to
move to the new building in late April 2003. By all
accounts, the new consulate will be a vast
improvement over the current situation.

The Commercial Service has responsibility for ensuring security of its office in Izmir since it
is not collocated with a State Department facility. This office is staffed by one FSN and a secretary,
who is paid by the Izmir Chamber of Commerce. Commerce’s Office of Security reviewed the office,
located on the fifth floor of the Izmir Chamber of Commerce building, in November 1997. At the time
of the review, two deficiencies were cited—a lack of fire extinguishers and the lack of an emergency
evacuation plan or bomb threat procedures. At the time of our inspection, the office had two fire
extinguishers, one in the receptionist/library area and the other in the office of the FSN. Both fire
extinguishers appeared to be in good working order and according to the FSN, they are checked and
maintained by crew from the U.S. Air Force contingent located nearby. The office is still deficient on

                                                     18

U.S. Department of Commerce                                                                  Final Report IPE-15370

Office of Inspector General                                                                             March 2003



the second item. No emergency evacuation plan and bomb threat procedures exist for the office. In
addition, we are concerned about the open access of the office. While there is some limited controlled
access security in the lobby of the building, the Commercial Service office door is open to anyone in the
building, leaving both the FSN and her secretary vulnerable. Because the office was last reviewed prior
to the new security standards being put in place after the bombings of the two U.S. embassies in East
Africa in 1998, this might be a problem that needs to be addressed. Thus, we recommend that (1) an
emergency evacuation plan and bomb threat procedures be immediately prepared for the Izmir office
and (2) OIO’s security contingent or the embassy’s Regional Security Officer8 ensure that the Izmir
office meets current security standards.




The Director General, in responding to our draft report, stated that OIO’s Overseas Building Manager
has met with OBO’s Project Manager to discuss the Commercial Service’s concerns regarding the
changes to improve security of the annex building in Ankara. Based on this meeting, as well as requests
from Embassy Ankara’s Administrative section, OBO conducted a second trip to Ankara and offered a
compromise solution to increase security while minimizing the loss of space to the Commercial Service.
The new SCO, in consultation with his staff, has accepted this compromise. The Commercial Service’s
actions meet the intent of our recommendation.

With regard to the Izmir office, we were separately provided copies of the newly created evacuation
plan and bomb threat procedures for the office. We reviewed the plan and procedures and found them
to be sufficient. The response to the draft report stated that our recommendation that a security review
of the Izmir office be conducted was implemented. We request that the results of this review be
provided to us in the action plan.

E.         Changes made by the new SCO should improve operations and productivity

To deal with the challenge of finding export successes amidst a changing Turkish economy, the new
SCO developed a Strategic Commercial Plan for Fiscal Year 2003. The plan was discussed and
critiqued by all CS Turkey staff during a strategic planning conference held in late August 2002. The
plan calls for a move away from CS Turkey’s previous strategy of relying on U.S. company
participation in large government-funded projects for export successes.

Instead, CS Turkey’s strategy will be to (1) conduct extensive outreach to Turkish companies to
persuade them to buy American products and services rather than those from the European Union and
(2) encourage and facilitate communication between Turkish and American firms by conducting a series
of “Doing Business With the USA” seminars. The plan is aggressive, calling for 70 export successes to

8
    The Regional Security Officer could perform the necessary review on a cost reimbursable basis.
                                                           19

U.S. Department of Commerce                                                                 Final Report IPE-15370

Office of Inspector General                                                                            March 2003



be reported in fiscal year 2003, up from 50 reported in 2002. In addition, the plan requires that 13
Industry Sector Analyses (ISAs) be submitted, up from 11 in 2002, and 150 International Market
Insights (IMIs) be submitted, versus just 12 in 2002 (see Appendix A for a description of these
products). To reach these objectives, each commercial specialist or assistant is to prepare at least two
IMIs per month and two ISAs per year,9 with the first one due on December 31, 2002, and the second
one on April 30, 2003.

The SCO has also directed staff to routinely get out of the office to meet with clients, to more facilitate
export successes. In addition, he has reorganized the reporting structure within the office to better
clarify the chain of command, particularly with respect to the commercial attaché in Ankara. The
attaché now oversees all financial and administrative operations of the entire post and reviews all written
products, including export successes, for Ankara, Istanbul, and Izmir. Two of the three trade specialists
in Ankara and the trade specialist in Izmir also report to him. All day-to-day operations in Istanbul will
continue to be managed by the PCO. Of course, overall responsibility for the operations of the post still
remains with the SCO, who will also have final review and approval authority for all written products.

We are hopeful that the changes put in place by the new SCO will improve operations and productivity,
but OIO management should still provide adequate oversight. In addition, if CS Turkey is able to meet
its export success goals and avoid substantial cost increases in fiscal year 2003, it should also be able to
improve its ranking in the OIO cost-benefit model (as described in the Background section of this
report). At the time of our visit, the new SCO was reviewing records to see where costs might be cut
or, at a minimum, contained.




9
    One FSN in Istanbul is only required to do one ISA because her assigned industry sectors do not require two ISAs.
                                                          20

U.S. Department of Commerce                                                                Final Report IPE-15370

Office of Inspector General                                                                           March 2003



II.      CS Turkey Is Meeting the Needs of Most Customers, but Improvements Are Needed

CS Turkey has a rich and diverse portfolio of programs that features a full menu of trade events to
support small to medium-sized firms and one of the Commercial Service’s more active advocacy
programs to help firms competing for major projects. The Department of Commerce’s advocacy
program helps ensure that U.S. firms have a level playing field when competing against foreign
competitors whose governments may provide other incentives to win major project contracts. CS
Turkey also plays a crucial role in supporting U.S. defense sales to Turkey, one of the largest importers
of U.S. defense-related equipment in the world. As the lead coordinator on the energy sector for
Showcase Europe, the post spearheaded an innovative webcast10 on energy opportunities in Europe
and Eurasia. It is active in several other efforts, such as the Appalachian Turkish Trade Project and
Afghan reconstruction. In addition, it is responsible for the operations of two constituent posts—one
serving Armenia and the other, Turkmenistan.

We queried U.S. businesses as well as the American Turkish Council, the U.S. Business Council of the
Turkish Foreign Economic Relations Board, the Turkish American Business Association, and other
groups that work to expand U.S. trade (ie, multiplier groups) about the post’s efforts in support of U.S.
trade and business interests in Turkey. Most were very pleased with the job it was doing. In particular,
they praised the former SCO for his charisma, strong oratory skills, and responsiveness to their
organizations.

Despite the post’s excellent reputation, our close inspection of the post’s operations, products and
services raised several concerns. Specifically, while most customers are satisfied with the products and
services they received from CS Turkey, some products were delivered late. In addition, some market
research did not meet CS Operations Manual guidelines, and reporting on market developments in
Turkey was poor. Additionally, CS Turkey’s performance—particularly with regard to the key
measure of export successes—was inconsistent, sometimes overstated, and often less successful than
that of similarly sized European posts. We noted eight instances in which the post claimed credit for
export successes worth $1.745 million, but we are questioning $1.664 million of that amount because
the post overstated the values and/or took credit for a success when CS Turkey was not involved.

A.      Most customers are satisfied with CS Turkey’s products and services, but problems exist

Our client surveys revealed that most customers in fiscal year 2002 were satisfied with the products and
services provided by CS Turkey, but there were exceptions due to timeliness of products delivered or
lack of follow-up (see Table 3). Customers only ordered 12 products and services from CS Turkey in
fiscal year 2002 (see Appendix A for descriptions of Commercial Service products and services). Of

10
 The Commercial Service offers a series of video broadcasts on global trade opportunities via the internet through
www.globalspeak.com
                                                        21

U.S. Department of Commerce                                                      Final Report IPE-15370

Office of Inspector General                                                                 March 2003



these customers, we successfully contacted eight with the following results: four customers were very
satisfied; three customers were satisfied; and one customer was unsure. The customer who was unsure
of CS Turkey’s service complained that while the quality of his International Partner Search (IPS) was
acceptable, he received the report too late—only one day before his meetings. Another customer
commented that while he was satisfied with his Gold Key, he was dissatisfied with follow-up by post.
Other customers commented on the high quality of their Gold Keys. Two customers specifically praised
FSN staff (the FSN covering the energy sector and the FSN in Izmir) for providing excellent Gold
Keys. The products and services we reviewed were produced when the former SCO was still assigned
to the post.

Our review of due dates for products and services revealed that one IPS and two International
Company Profiles (ICP) delivered by post in fiscal year 2002 were late – one by up to 11 business
days. The CS Operations Manual specifies that IPS reports must be completed within 15 business
days from receipt of payment and that ICP reports must be completed within 10 business days of
receipt of payment.
         Table 3: Customer Satisfaction Survey of CS Turkey Customers, Fiscal Year 2002

          Product             Location      Feedback         Status        Comments
          International Partner Search
          Client 1            Istanbul      Unsure           11 business   Information late, not
                                                             days late     provided until day
                                                                           before meeting.

          International Company Profiles
          Client 2            Istanbul      Very Satisfied   11 business   Comprehensive,
                                                             days late     satisfied need


          Client 3            Ankara        Very Satisfied   4 business    Good product, but a
                                                             days late     post’s
                                                                           responsiveness
                                                                           depends on how
                                                                           busy they are with
                                                                           other projects
          Gold Key Service
          Client 4            Ankara        Satisfied        On time
          Client 5            Ankara        Satisfied        On time
          Client 6            Ankara        Satisfied        On time       Dissatisfied w/
                                                                           follow-up
          Client 7            Ankara        Very Satisfied   On time       Praise for FSN
                                                                           covering energy
          Client 8            Ankara        Very Satisfied   On time       Praise for FSN in
                                                                           Izmir


                                                   22

U.S. Department of Commerce                                                        Final Report IPE-15370

Office of Inspector General                                                                   March 2003



The former SCO could not explain why the products were late and indicated that he had delegated
responsibility for the program to the commercial attaché in Ankara and the PCO in Istanbul because he
was too busy to manage the programs. He said that if any delays occurred in March, it was because
March is an unusually busy month for CS Turkey. Several events, including the conferences for the
American Turkish Council and the Appalachian Turkish Trade Project, are held in March. However,
none of the delays in products and services we identified occurred in March. The SCO added that the
post kept in close contact with its clients to update them on the status of products and services.
Nevertheless, per the CS Operations Manual, the SCO is responsible for the quality and timeliness of
all post products and services and should ensure that the staff meets established service schedules and
quality standards. We note that the commercial attaché and PCO also have a role to play in monitoring
the due dates of the post’s products and services, but that the ultimate responsibility rests with the SCO.

While CS Turkey has clearly provided several excellent products and services in fiscal year 2002, its
performance has been inconsistent and more oversight is needed. We recommend that the new SCO
work closely with his commercial attaché, the PCO in Istanbul and FSN staff to ensure that all post
products and services are of high quality and timely. Also, the SCO should review guidelines on
customer care, particularly follow-up procedures, with the commercial attaché, the PCO in Istanbul,
and FSN staff. In addition, the SCO should consider (1) formal training for all staff on customer care
and (2) establishing a mentoring system among FSN staff where more successful FSNs can be a
resource to less experienced FSNs. We recommend that the OIO Regional Director’s office increase
its management oversight of the post and monitor its performance more carefully. We also recommend
that CS management reiterate to the former SCO that he needs to better manage core products and
services at his next posting and that his failure to do so could jeopardize the reputation of the
Commercial Service.




In responding to our draft report, the Assistant Secretary and Director General of the U.S. and Foreign
Commercial Service agreed with our recommendation and directed the SCO to adopt procedures, such
as multi-tier reviews by the commercial attaché and the PCO in Istanbul, to ensure the quality and
timeliness of CS Turkey’s products and services. In addition, the SCO has directed all staff to take
online training in customer service no later than June 30, 2003. He has also developed a pilot program
where more senior commercial specialists mentor and help more junior colleagues on advocacy and
client counseling. The actions taken meet the intent of our recommendations.

The Commercial Service also has taken steps to strengthen management oversight of CS Turkey’s
performance, to include its core products, services, and export successes. Specifically, CS Turkey’s
Strategic Plan, which prioritizes the mix of products and services offered by post, will be compared with
the actual results achieved by the post. In addition, the staff in OIO’s Europe region will be informed by

                                                    23

U.S. Department of Commerce                                                      Final Report IPE-15370

Office of Inspector General                                                                 March 2003



the Commercial Service’s Export Promotion Services when post’s products and services are not
delivered on a timely basis or to the satisfaction of the customer. The Commercial Service’s actions
meet the intent of our recommendations.

Finally, the Commercial Service agreed with our recommendation that the former SCO be counseled
about his responsibilities as SCO. The Regional Director for Europe has met twice with the former
SCO as has the new Regional Director for the Western Hemisphere who oversees the former SCO’s
next posting. They discussed management and training issues with him and the need to address any
weaknesses which may affect his ability to effectively and efficiently manage post operations in the
future.

B.      Reporting on market research and market developments needs improvement

Industry Sector Analyses (ISA) are market research reports that help U.S. companies assess market
opportunities for their products and services. A key Commercial Service product, ISAs provide
information on specific industries, such as their market potential, demand trends, market size,
competition, market access information, regulations, distribution practices, and key contacts.
International Market Insights (IMIs) are brief reports on specific foreign market developments and
upcoming opportunities for U.S. businesses. Both ISAs and IMIs are provided free of charge to U.S.
exporters through Commercial Service websites or via the Commercial Service’s domestic offices.

We found that the majority of CS Turkey’s ISAs were not submitted in a timely manner and that some
did not meet guidelines contained in the CS Operations Manual. Specifically, 2 of the 11 submitted
did not include basic market statistics. We also found that CS Turkey produced 75 percent fewer IMIs
in fiscal year 2002 than it had in the previous year.

ISAs were not timely and some did not meet Commercial Service guidelines

At the time of our August 2002, inquiry to Export Promotion Services (EPS), which coordinates ISA
production worldwide for CS, the post had not submitted any of the 11 ISAs it had scheduled for fiscal
year 2002, including one that the post chose to produce voluntarily. One ISA was nearly 9 months late.
 As shown in Table 4, by the end of the fiscal year, post did meet all of its ISA commitments with the
majority of the reports submitted during the last 30 days of the fiscal year.




                                                  24

U.S. Department of Commerce                                                          Final Report IPE-15370

Office of Inspector General                                                                     March 2003





Table 4: Status of Scheduled Industry Sector Analyses for Fiscal Year 2002
          (as of August 2002)
ISA                    Due Date                     Location                  Status
Eco-Tourism            09/30/02                     Istanbul                  On time
Tourism Infrastructure
                       05/01/02                     Ankara                    4 months late
Heating, Ventilation   12/31/01                     Istanbul                  8 months late
Commercial Utility
Vehicles               06/10/02                     Izmir                     2 months late
IT Trends              03/15/02                     Ankara                    5 months late
Defense                06/03/02                     Ankara                    3 months late
Energy                 Voluntary-N/A                Ankara                    Completed
Energy Resources       03/15/02                     Ankara                    6 months late
Radiology              09/02/02                     Istanbul                  On time
Renewable Energy       05/15/02                     Ankara                    3 months late
Safety, Security       09/16/02                     Istanbul                  On time
Source: Export Promotion Services, Commercial Service


Submitting so many ISA reports late is a poor management practice and raises concerns about
management oversight and the post’s ability to prioritize and handle its workload. More significantly,
U.S. exporters, particularly small- and medium-sized firms, who rely heavily on ISAs, were deprived of
important industry information about Turkey’s markets throughout most of the fiscal year.

While CS Turkey produced several excellent ISAs in fiscal year 2002, we reviewed two on tourism that
lacked basic statistics on total market size, market trends, import market, competition, etc. While useful
information was provided in these reports, the reports were not very helpful to U.S. exporters making
crucial decisions about the appropriateness of an industry sector for their particular products and
services. In addition, U.S. exporters cannot make useful comparisons of different country markets
without having the same basic statistics for those markets. For these reasons, the CS Operations
Manual and EPS guidelines specify that all ISAs should contain the same market statistics as cited
above. EPS indicated that if a post had difficulty finding market statistics on an industrial sector, it could
target a subsector, which had more market information or select an entirely new industry sector after
consulting with their office. The Manual further states that “ the SCO is ultimately responsible for the
[ISA] program at post, in close cooperation with the SCO’s Regional Director in the Office of
International Operations (OIO) . . . ”



                                                        25

U.S. Department of Commerce                                                          Final Report IPE-15370

Office of Inspector General                                                                     March 2003



When asked about the problems with the post’s ISA program, the former SCO indicated that he did
not manage the program and was not aware of timeliness and quality issues. He said that he had
delegated the responsibility to the commercial attaché in Ankara and the PCO in Istanbul. The former
SCO did not know that the post had not submitted any of its ISA obligations at the time of his
departure, which was less than two months before the end of the fiscal year. He could not explain why
any of the ISA submissions were late. However, he did agree that the SCO is ultimately responsible for
the ISA program per the CS Operations Manual. We note that the commercial attaché and PCO also
have some responsibility for monitoring the post’s ISAs, but the SCO is the one who should have
ensured that the ISA program was working well. We are also concerned that OIO management was
not aware that the ISAs were late and that the reports did not always meet standards.

The new SCO indicated that the post has selected more appropriate ISA topics for fiscal year 2003
and he has adopted a two-deadline approach for all ISAs. One half of ISAs will be due in December
and the other half will be due in April of each fiscal year. In addition, he has changed the internal review
process for ISAs. The commercial attaché in Ankara will now review and approve all ISAs (including
those from Istanbul) to ensure consistency in quality. In addition, the SCO redistributed guidelines on
writing ISAs to all staff via e-mail on October 10, 2002, per our recommendation. For fiscal year
2003, the current SCO has committed to producing 13 ISAs.

To correct the ISA problems at post, we recommend that (1) the SCO monitor the quality of ISAs and
direct the commercial attaché and PCO in Istanbul to work more closely with FSN staff and provide
mentoring to ensure consistent quality, (2) the Regional Director provide more management oversight of
the post and better monitor its performance, and (3) the Commercial Service reiterate to the former
SCO that it is his responsibility, as an SCO, to manage the post’s ISA program per the CS Operations
Manual.




In response to our draft report, the Commercial Service agreed with our recommendations to mentor
FSN staff and ensure consistency in the quality of all ISAs produced at post. In October 2002, the
new SCO sent detailed guidance on writing ISAs to all CS Turkey staff. The PCO and commercial
attaché will be held responsible for ensuring the quality and timeliness of ISAs, but ultimate responsibility
for managing the post’s ISA program will rest with the SCO. OIO/Europe will also monitor the number
and timeliness of Commercial Service Turkey’s ISAs. We believe that the actions taken or planned by
the SCO and OIO/Europe will address our concerns.




                                                     26

U.S. Department of Commerce                                                                 Final Report IPE-15370

Office of Inspector General                                                                            March 2003



Reporting on market developments through IMIs is poor

In fiscal year 2002, CS Turkey produced 14 IMIs,11 down 75 percent from 2001. Ankara, which has
two officers and five FSNs produced no IMIs; Istanbul with one officer and five FSNs produced 7,
while Izmir with one FSN produced 5 IMIs. Compared to other posts in the region (as shown in Figure
A), smaller posts with fewer officers and FSNs, such as the Czech Republic, are out producing
Turkey.12

            Figure A: CS Turkey’s IMI Reporting is Poor

                 140

                 120


                 100
                                                                                Turkey
                  80                                                            Poland
                                                                                Czech Republic
                  60
                                                                                Hungary
                                                                                Spain
                  40

                  20


                   0
                       FY 2000      FY 2001      FY 2002



            Source: e-Menu, Commercial Service


Our review of the 14 complete IMIs produced by the post revealed that they are of high quality and
contain useful information to U.S. exporters. However, the post should be producing more IMIs,
particularly in light of on-going privatization efforts in key sectors, such as telecommunications and
energy, which would be of great interest to U.S. exporters. While the CS Operations Manual does
not set a frequency or quota for IMI submissions, we note that it does specify that one of the principal
activities of post is “to develop marketing and commercial intelligence for dissemination to the U.S.
business community . . . .” We emphasize that IMIs should contain timely market information,
particularly useful to small- and medium-sized firms. Unlike ISAs, which have strict requirements, IMIs


11
   Commercial Service’s e-Menu lists 14 IMIs completed by CS Turkey in fiscal year 2002. But, the post indicates that 

just 12 complete IMIs were produced, as 2 IMIs were travel advisories.

12
   Specific posts that might offer a good comparison to CS Turkey were suggested to us by OIO and CS management.

                                                           27

U.S. Department of Commerce                                                         Final Report IPE-15370

Office of Inspector General                                                                    March 2003



are flexible and can be used in many ways to report items of commercial value to U.S. exporters. IMIs
can also generate more interest in a host country if useful commercial information is conveyed.

The former SCO indicated that he did not manage the IMI program and was not aware that CS Turkey
produced only 14 IMIs in fiscal year 2002. He could not explain why Ankara, which has two officers,
including the SCO, and five FSNs, did not produce any IMIs in fiscal year 2002. The CS Operations
Manual specifically states that “The SCO is ultimately responsible for the [IMI] program at post . . .”
and that “SCOs are responsible for the quality of all IMIs.” We note that the commercial attaché in
Ankara and the PCO in Istanbul should also have been monitoring the post’s production of IMIs, but
the SCO has ultimate responsibility for the program.

The new SCO has set a post target of 150 IMIs for fiscal year 2003. He is requiring that each
commercial specialist produce a minimum of two IMIs per month. In addition, the current SCO has
distributed guidelines on writing IMIs via e-mail to all staff on October 10, 2002, per our
recommendation.

To improve IMI reporting, we recommend that the SCO monitor the production of IMIs at post and
work with the commercial attaché and PCO to ensure that all staff understand the IMI product, its
importance, and that it can be used to report more than just major project opportunities. We
recommend that the Regional Director for Europe monitor the post’s performance more closely and
provide more management oversight to post. We also recommend that CS reiterate to the former SCO
that he must manage a post’s IMI program, which is one of his responsibilities as SCO.




The Director General, in responding to our draft report, agreed with our recommendations.
Specifically, the new SCO has directed the PCO and commercial attaché to work closely with the staff
to provide guidance on writing quality IMIs. The SCO has also provided detailed guidance to the CS
Turkey staff on how to write IMIs. The PCO and commercial attaché will be held responsible for
ensuring the quality and timeliness of IMIs, but ultimate responsibility for managing the post’s IMI
program will rest with the SCO. OIO/Europe will monitor the post’s products, including IMIs, to
ensure that it meets its core product goals, as laid out in the post’s strategic plan. The actions taken or
planned should address our concerns.

C.      Market-driven products and services face serious decline

In fiscal year 2002, CS Turkey experienced major declines in the number of market-driven products
and services, which include the Gold Key, ICPs, and IPS. Post also offers the Platinum Gold Key and
Flexible Market Research service (see Appendix A for a description of these services), but no

                                                    28

U.S. Department of Commerce                                                       Final Report IPE-15370

Office of Inspector General                                                                  March 2003



customers ordered this service in fiscal year 2002. Gold Keys declined by 45 percent (versus a decline
of 25 percent Europe-wide); ICPs declined by 64 percent (versus an increase of 14 percent Europe-
wide); and IPS declined by 80 percent (versus an increase of 35 percent Europe-wide). Compared to
other posts, Turkey experienced the most severe declines with the exception of Hungary for the IPS
service.

Table 5: CS Turkey Products and Services Compared to Those of Other Posts
 Country      Gold      Gold      Change      IPS         IPS     Change     ICP       ICP FY      Change
              Key       Key                   FY 01       FY 02              FY 01     02
              FY 01     FY 02
 Turkey       11        6         -45%        5           1       -80%       14        5           -64%
 Poland       20        26        +30%        6           4       -33%       1         5           +400%
 Czech R.     11        26        +136%       3           2       -33%       0         3           +300%
 Hungary      15        19        +27%        5           0       -100%      0         1           +100%
 Spain        26        22        -15%        10          4       -60%       0         0           -
 Europe       385       287       -25%        139         90      -35%       36        41          +14%
 Source: e-Menu, Commercial Service


Many factors may account for the serious decline of market-driven products and services at post,
including the state of the Turkish economy, effects of September 11, 2001, and declining interest in
doing business in the region because of regional conflicts with Iraq, Iran, and others. However, the post
does have a role to play in marketing its products and services. One of the most effective vehicles to
promote CS Turkey’s products and services is through consistent and timely reporting of market
developments and commercial opportunities and making available high-quality market research products
on industrial sectors. We note that in fiscal year 2002, the post did not provide much timely market
information or market research to generate much interest in Turkey’s markets. However, the post was
active in several outreach events, such as the Appalachian Turkish Trade Project, the annual conference
of the American Turkish Council, the energy sector of Showcase Europe, Afghan reconstruction, and
many other events. These events were mostly targeted at U.S. firms (large and small) already in the
region.

To generate more interest in the Turkish market, the post will have to work much harder and more
creatively on outreach. CS Turkey will likely be aided in this endeavor by an economy, which is
recovering, a young and growing population with more than 50 percent under the age of 25, and a
vibrant underground economy, which accounts for as much as 30 to 40 percent of GNI. Thus, we
recommend that the SCO closely monitor the number of products and services ordered by customers
and consider additional outreach events, which target small- and medium-sized firms, to generate
interest in the post’s products and services, if necessary.

                                                    29

U.S. Department of Commerce                                                        Final Report IPE-15370

Office of Inspector General                                                                   March 2003





In response to our draft report, the Commercial Service agreed with our recommendations to monitor
the number of products and services ordered by customers and consider additional outreach events.
The SCO is in the process of initiating a direct marketing campaign, using the BuyUSA.com database,
to be launched no later than March 30, 2003. In addition, the SCO is developing several outreach
events that will target small- and medium-sized firms. While the Commercial Service’s actions appear
to meet the intent of our recommendations, we look forward to seeing details of the outreach program in
the Commercial Service’s action plan.

D.      Export successes need better management review

Our review revealed that in the past, CS Turkey has experienced serious problems with reporting
export successes, verification of export successes, and the capture of export successes. In fiscal year
1999, just one export success was reported; in fiscal year 2000, no export successes were reported.
According to the former SCO, the post did have export successes in these years, but it just did not
report them. In fiscal years 2001 and 2002, 40 and 50 export successes were reported respectively,
after the former SCO realized, following his attendance at the regional SCO conference for Europe in
Budapest in 2001, that the reporting of export successes is a top management priority. In reviewing a
sample of the fiscal year 2002, export successes to assess quality and accuracy, we found that 8 of the
27 successes we reviewed were inaccurate—with problems ranging from overstated values to questions
about the extent of CS Turkey’s involvement in the export action. Finally, we found that the post’s
many initiatives, particularly trade events, did not result in many export successes in fiscal year 2002.
Of the 50 export successes reported by post in fiscal year 2002, only 5 were generated as a result of
trade events or other initiatives. We believe that the post can train FSN staff to more effectively capture
export successes. In addition, the post should reevaluate its trade events schedule and consider pulling
out of events that do not generate export successes.

Post’s performance on export successes has been inconsistent

As shown in Figure B, in fiscal year 2002, CS Turkey increased the number of its export successes by
25 percent from the previous year. This is commendable. However, the post had no export successes
in fiscal year 2000 (and only one export success in fiscal year 1999). We note that Izmir, which is a
one FSN office, produced 20 percent of the export successes in FY 2002.




                                                    30

U.S. Department of Commerce                                                          Final Report IPE-15370

Office of Inspector General                                                                     March 2003



    Figure B: CS Turkey’s Inconsistent Performance on Export Successes

          25
                     22                                            FY 2000=0
                                     21
                           19                                      FY 2001=40
          20
                                                                   FY 2002=50
          15                                                               FY 2000
                                11                    10                   FY 2001
          10
                                                  7                        FY 2002
            5
                 0              0             0
            0
                Ankara Istanbul               Izmir

      Source: e-Menu, Commercial Service


The post’s poor performance in fiscal years 1999 and 2000 is disturbing, particularly since U.S. exports
to Turkey reached their all-time high in 2000. In addition, the post generated 40 export successes in
2001, while Turkey experienced its worst economic crisis since World War II and increased this figure
by 25 percent in 2002.

     Figure C: Other Posts Are Outperforming CS Turkey on Export Successes

          140



          120

                                                                  Turkey
          100

                                                                  Poland
          80

                                                                  Czech Republic
          60

                                                                  Hungary
          40

                                                                  Spain
          20


           0
                 FY 2000            FY 2001            FY 2002




    Source: E-Menu, Commercial Service

                                                             31
U.S. Department of Commerce                                                            Final Report IPE-15370

Office of Inspector General                                                                       March 2003



In addition, CS Turkey may be under performing in generating export successes compared to other
similarly sized posts, as shown in Figure C and Table 6. We note that posts with fewer officers and
FSN staff, less U.S. exports and smaller economies, such as the Czech Republic and Hungary, all
outperformed CS Turkey in the last two years. While Turkey has the lowest GNI per capita of all posts
compared, it also has one of the largest young and growing populations.

When asked about the post’s performance in fiscal year 2000, the former SCO indicated that he
understood that export successes were a management priority. However, since there are many
management priorities from Washington, he said that he was not clear where export successes ranked
among those priorities. He further stated that it was not until he attended the 2001 regional SCO
conference that he ascertained that export successes were a top management priority. Thus, he did not
report any export successes he might have had in 2000, nor did he make a concerted effort to harvest
export successes. This is troubling because the Commercial Service uses export successes as one of its
primary measures of performance and defends its budget requests to Congress based in part on these
measures. Given his number of years in the Commercial Service, the former SCO’s reply is surprising.
We also note that the commercial attaché and PCO do have a role in reviewing export successes, but
based on our review, we found that they also did not make export successes a priority.

Table 6: CS Turkey Performance Versus That of Other Posts
Country     Export       Staffing   US          GNI          GNI      Population   Adjusted       Cost
            Successes               Exports     2001         Per      (millions)   OIO            Benefit
            2002                    2001        ($ in        Capita                Resource       Model
            (change                 ($ in       billions)    ($)                   Allocation
            from                    millions)                                      Model
            2001)
Turkey      50 (+25%)    3 CO/11    3,094.6     168.3        2,540    67.8         3rd Quintile   4th
                         FSNs                                                                     Quintile
EUR         1934
            (+7.4%)
Poland      50           3 CO/7     787.8       163.9        4,240    38.7         3rd Quintile   2nd
            (-55.4%)     FSNs                                                                     Quintile
Czech       111          2 CO/5     706.1       54.1         5,270    10.3         4th Quintile   2nd
Republic    (+70.8%)     FSNs                                                                     Quintile
Hungary     66           2 CO/6     685.5       48.9         4,800    10.2         5th Quintile   4th
            (+40.4%)     FSNs                                                                     Quintile
Spain       125          3 CO/14    5,756       586.9        14,860   39.5         2nd Quintile   3rd
            (+28.9%)     FSNs                                                                     Quintile
Source: E-Menu, U.S. Census, World Bank Statistics, Commercial Service Staffing Pattern, Commercial Service
Performance Data, 2000
Note: Adjusted OIO Resource Allocation Model is where the post should be performing. The cost benefit model is
 where the post is actually performing. Those in the first quintile are the highest performers.



                                                        32
U.S. Department of Commerce                                                                  Final Report IPE-15370

Office of Inspector General                                                                             March 2003



The current SCO has indicated that export successes are his highest priority and that he is aligning all of
the post’s activities to capture as many export successes as possible. Even so, we recommend that the
SCO closely monitor the post’s performance on export successes and that the Regional Director for
Europe provide more scrutiny over the post’s performance, particularly in light of the importance of
export successes to the Commercial Service. We also recommend that CS management ensure that the
former SCO understands post responsibilities and objectives, including the importance of export
successes. We suggest that both the Regional Director for Europe and the Regional Director covering
the area of the former SCO’s next posting spend time with him to identify and address those
weaknesses that might adversely affect his ability to effectively and efficiently manage subsequent posts.




The Director General’s response to our draft report stated that the Commercial Service agreed with our
recommendation and has taken steps to strengthen management oversight of CS Turkey’s export
successes. Specifically, the Regional Director for Europe sent the latest export success criteria to CS
Turkey and discussed with the SCO and PCO the need for strict application of headquarters’ criteria.
In addition, the response states that the Regional Director read every export success for his region in
fiscal year 2002 and took corrective action on several export successes with the assistance of the OIO
Europe staff. We recognize that this was no small undertaking given the number of countries that the
Regional Director must supervise. However, our review indicated that these actions were not enough to
ensure the accuracy of export successes in Turkey. In its action plan, the Commercial Service
management needs to outline what additional steps can be taken to ensure the integrity of this most
critical performance measure.

The Commercial Service’s response to our recommendation regarding counseling and training for the
former SCO is discussed on page 24.

Some export successes are problematic

Our survey of 27 randomly selected export successes (nine for each location in Ankara, Istanbul, and
Izmir) in fiscal year 2002 revealed that 8, or nearly 30 percent, of the export successes are problematic.
 The CS Operations Manual describes export successes as:

     �   An actual verifiable export sale – shipment of goods or delivery of services.
     �   The legally binding signing of an agreement, including agent/distributor, representation, joint
         venture, strategic alliance, licensing, and franchising or the signing of a contract by the client,
         with sales expected in the future.13

13
  The signing of a contract and an export sale immediately thereafter (within three months), related to the same
contract, must be reported as a single export success.
                                                          33

U.S. Department of Commerce                                                           Final Report IPE-15370

Office of Inspector General                                                                      March 2003



    �   Resolution of a trade complaint or dispute on behalf of the client—avoiding harm or loss.
    �   Removal of a market access barrier, including standards, regulations, testing and certification—
        opening a market for U.S. firms.

We found that in five instances post reported anticipated or expected sales for export value rather than
actual sales as required in the CS Operations Manual and OIO guidelines. The Operations Manual
specifically states that “projected or anticipated sales, etc. are not allowed on the dollar value line of the
report as the sales have not yet been consummated.” Post agreed that all five export successes that we
questioned contained incorrect dollar values.

Post officials added that most of their information is obtained from Turkish importers rather then the
U.S. exporter. While it is easier to work directly with the Turkish importer, we emphasize that the
customer is the U.S. exporter and not the Turkish importer. As such, all information should be verified
with the U.S. client.

We also found that an additional three export successes we reviewed are questionable for reasons other
than problems with reporting anticipated or expected sales rather than actual sales. The first instance
involved visa assistance requested by a U.S. exporter through a CS domestic office. The U.S. exporter
was trying to obtain U.S. visas for its Turkish customers to travel to the United States for training. The
post successfully facilitated the visas and then reported an export success worth $500,000. But, the
U.S. company indicated to us that the sale of equipment, worth $500,000, had been made prior to the
request for visa assistance and that the sale was not contingent on the issuance of the visas to its
customers. Training could have been arranged on site in Turkey.

Post agrees that the dollar value for this export success should have been zero, but they still believe it is
a legitimate export success. We disagree. While CS Turkey was clearly helpful to the U.S. exporter,
its assistance has not resulted in any sales, future sales, agreements signed, etc., at this time. Sales may
result in the future, but not at the time the export success was reported. Post officials indicated that they
obtained this visa assistance request from the St. Louis U.S. Export Assistance Center, which may also
have inaccurately reported it as an export success.

The second questionable export success in this category was reported as a $600,000 sale. According
to the U.S. exporter, the amount should have been $60,000. In addition, they indicated that they have
had a long-standing relationship with the Turkish customer for nearly 15 years and that as long as they
keep their prices reasonable, this customer continues to buy from them. They emphasize that they had
no contact with the Commercial Service domestic office or CS Turkey with regard to this transaction.

Post indicated that the extra zero was a typographical error, and the correct amount is $60,000. But,
despite the U.S. company’s remarks, they still believe that they have a legitimate export success

                                                     34

U.S. Department of Commerce                                                            Final Report IPE-15370

Office of Inspector General                                                                       March 2003



because of the counseling and support provided to the Turkish importer. As a result of their efforts,
post officials maintain that the Turkish importer placed an order with the U.S. exporter. We do not
doubt that the post has been assisting the Turkish importer and that its assistance has resulted in export
successes. However, we do not believe that this particular export success was due to the post’s efforts
given the background provided by the U.S. company.

The third questionable export success was reported as a contract signing, which generated a $25,000
royalty payment. Post incorrectly reported this export success as being generated by a division of a
U.S. company that the post had assisted during a trade mission. In fact, the payment was received by
another division of the same company and according to the company, neither the post nor the
Commercial Service domestic office contributed to the reported export success. Ironically, the post’s
efforts did result in an export success (the signing of a letter of intent) for the company’s division that the
post did assist, but CS Turkey reported the wrong export success. This confusion resulted from the
post’s over dependence on Turkish sources for export success information and poor due diligence by
post to verify export successes. Post officials concurred that the export success they reported was
incorrect.

CS Turkey’s reporting of projected or anticipated sales and questionable export successes resulted in
an overclaim in excess of $1.6 million in fiscal year 2002, as shown in Table 7 on the next page. In
addition, several narratives of export successes we examined contained typographical errors or needed
editing for content and ease of reading. We believe that these discrepancies and quality control
problems occurred because (1) post staff did not always adhere to CS Operations Manual guidelines
for performance reporting and (2) there was a lack of management oversight by the SCO and the
Regional Director for Europe. The Manual states that “SCOs are responsible for providing quality
control for performance reporting.” It also states under Washington responsibilities that “Office
Directors spot-check Export Success reports. . . .”, which the Regional Director for Europe says that
he did for the fiscal year 2002 export successes in his region.




                                                      35

U.S. Department of Commerce                                                                Final Report IPE-15370

Office of Inspector General                                                                           March 2003



Table 7: CS Turkey’s Problematic Export Successes
Export Success        Claimed               Actual                Legitimate            Discrepancy
                                                                  Export
                                                                  Successes
Ankara                $400K                 $0                    Yes                   $400K
Istanbul              $80K                  $36,725               Yes                   $43,275
Istanbul              $80K                  $39,761               Yes                   $40,239
Istanbul              $25K                  $0                    No                    $25K
Istanbul              $500K                 $0                    No*                   $500K
Izmir                 $6K                   $1,203                Yes                   $4,797
Izmir                 $20K                  $2-3K                 Yes                   $17K
Izmir                 $600K                 $0*                   No*                   $600K

Total                 $1,745,690            $81,689                                     $1,664,001
Source: Commercial Service’s Client Management System export success database
* The post disagrees with our conclusion on these points. See report text for more information.


When asked about the problems we found, the former SCO said that he had not been managing the
export success program. At the time, he believed that it was more important to spend his time on
counseling companies than reporting on past activities. He understands that he is responsible for the
quality of export successes. He indicated that he should have paid more attention to the program, but
was too busy to do so. We note that the commercial attaché and PCO could have helped the SCO
review export successes, but that post priorities and management oversight are the responsibility of the
SCO. Finally, the Commercial Service also has a contractor who is responsible for verifying the
accuracy of export successes, but given the number of problematic export successes we found, the
contractor may not be doing an effective job of reviewing export successes.

We recommend that the new SCO read, review, and approve each export success and require
appropriate due diligence in reporting of export successes. This includes verifying export successes with
the U.S. company and not just the Turkish importer, distributor, or partner. We reiterate that the
customer is the U.S. exporter, not the Turkish party. We also recommend that the Commercial Service
revise its Operations Manual to explicitly state that all export successes must be verified with the U.S.
client. The Regional Director’s office must also provide further management oversight of export
successes. In addition, we recommend that the contractor hired by the Commercial Service to review
export successes take random samples of export successes (not just those that look suspect) on a
periodic basis to help ensure the accuracy of export successes. To correct the accuracy of the export
success database for CS Turkey, we recommend that it be revised to reflect our findings.




                                                        36

U.S. Department of Commerce                                                       Final Report IPE-15370

Office of Inspector General                                                                  March 2003





For CS Turkey, the Commercial Service agreed with our recommendation that the post should verify all
export successes with the U.S. exporters. Effective January 1, 2003, the post will confirm all export
successes with the American firms. Further, the new SCO has instituted procedures whereby he
reviews and approves all export successes. With regard to CS Turkey, the SCO’s actions meet the
intent of our recommendation.

The Commercial Service’s response to our draft report stated that the Office of Planning is considering
our recommendation that the CS Operations Manual explicitly state that all export successes must be
confirmed with the U.S. client. Given the extent of discrepancies in CS Turkey’s export success reports
as discussed in this report, the Commercial Service should consider adopting additional measures to
ensure the integrity of export successes. One of the best ways to do this is to verify export successes
with the U.S. client. While the process is time consuming, it is a necessary step, which can be integrated
into the client follow-up work required of the post, as already called for in the CS Operations Manual.
 We request that the Commercial Service provide an update on actions taken to address this
recommendation in its action plan.

The Commercial Service agreed with our recommendation suggesting that the contractor hired to review
export successes (a very positive step by the Commercial Service) take random samples of export
successes to verify their accuracy. Management has requested quarterly reports of her findings. The
Service clearly recognizes the importance of maintaining the integrity of export successes, which are
reported to Congress. We must emphasize, however, that the Commercial Service should not rely
solely on the work of the contractor. The quality of the contractor’s work must also be reviewed. Our
review of export successes in Turkey revealed serious problems, even though these export successes
had been reviewed by the contractor. Of the 27 export successes reported by CS Turkey in fiscal year
2002, 8 or nearly 30 percent were problematic with 95 percent of the dollar value of the post’s export
successes in question. We believe these figures are too high. In addition to efforts undertaken by the
Regional Director for Europe and the contractor, the Commercial Service must consider taking
additional measures to ensure the integrity of export successes. For instance, mandate that export
successes be verified with the U.S. client as part of the follow-up procedures required of post in the CS
Operations Manual, as we recommended. We request that the Commercial Service’s action plan
address these concerns.

Finally, the Commercial Service has updated its export success database to reflect our findings. We
have confirmed that the updates are in place. The Commercial Service’s action meets the intent of our
recommendation.



                                                   37

U.S. Department of Commerce                                                        Final Report IPE-15370

Office of Inspector General                                                                   March 2003



More export successes should be generated from post’s events and initiatives

CS Turkey is an active post with many trade promotion activities and initiatives. As noted above, it is
the lead coordinator on the energy sector for “Showcase Europe” and is active in several trade events
and initiatives, including the Appalachian Turkish Trade Project and American Turkish Council events.
We noted that the post’s many initiatives, particularly trade events, did not result in many export
successes in fiscal year 2002. We reviewed the narratives of the 50 export successes reported by post
in fiscal year 2002 and identified only five export successes (or 10 percent of total successes), which
were generated from post participation in trade events and initiatives, as shown in Figure D. The total
dollar value of these export successes is $35,600, with one export success (worth $25,000) being
questioned in the previous section. Compared to the time, effort, and monies spent on these initiatives,
post should be capturing more export successes. We fully understand that export successes take time
and sometimes results of the post’s efforts will not be realized for years. However, we also note that
the post is reporting export successes generated by efforts from previous years.

Figure D: CS Turkey’s Activities Generating Export Successes in Fiscal Year 2002

                                                                      Advocacy
                                      10%                             Counseling
                          10%                   6%
                                                                      Commercial News USA
                                                           6%
               14%                                                    Trade Events and Initiatives

                                                         4%           Trade Complaints

                                                         2%           Customs

                                                      2%              IPS
              20%
                                                                      Gold Key

                                            26%                       BuyUSA

                                                                      ICP


 Source: CMS Export Success Database, Commercial Service


To maximize opportunities to generate and capture export successes, we recommend that the post
reevaluate its trade promotion program to better balance the time and resources devoted to trade events
and initiatives, including those that are mandatory, which do not result in export successes. The post
must participate in mandatory events, such as the Appalachian Turkish Trade Project and some

                                                   38

U.S. Department of Commerce                                                     Final Report IPE-15370

Office of Inspector General                                                                March 2003



Showcase Europe events. However, its level of involvement should be balanced with the needs of
mainstay programs, including core products and services, which generate export successes. In addition,
the SCO should commit more time to mentor the commercial attaché and PCO, so they in turn can train
their FSN staff to more effectively capture export successes from trade events and initiatives. We
believe that many more export successes could be captured if FSN staff received additional training and
coaching. For instance, emphasis should be placed on improving follow-up on trade events by FSN
staff. The business community and multipliers praised the post for its handling of several high-profile
events in fiscal year 2002 including the Appalachian Turkish Trade Project Conference and the
“PowerGen Europe” trade show, which is a Showcase Europe event. However, very few export
successes were generated from these events. Given the reported success of these events, we believe
that some export successes may not have been captured because of either inadequate training of FSNs
or inadequate follow-up with participating companies. Finally, the post should not hesitate from
withdrawing from trade events that do not produce export successes and are no longer appropriate for
the market.




In response to our draft report, the Commercial Service agreed with our recommendations to reevaluate
CS Turkey’s trade promotion program. Under the new fiscal year 2003 Strategic Commercial Plan,
the post will target only products and services that result in export successes. The SCO will monitor
progress during the course of the year and make any adjustments that may be required. We believe the
actions taken or planned will address our concerns.




                                                  39

U.S. Department of Commerce                                                      Final Report IPE-15370

Office of Inspector General                                                                 March 2003



III. 	   Financial Operations and Administrative Matters Are Generally in Order, but
         Some Problematic Areas Need to be Addressed

In general, we found that many of CS Turkey’s financial management and administrative operations that
we reviewed were functioning effectively. Specifically, assets were accounted for and appropriately
used. Collections, inventory, time and attendance records, budget, and procurements were properly
managed. Much of the credit for the sound financial management and administrative operations that we
reviewed at post has to go to the two administrative assistants, one in Ankara and one in Istanbul, who
are dedicated to running a smooth operation. While they have taken some formal training for their
positions, much of their expertise has been gained “on the job” by being organized, attentive, and
seeking guidance from headquarters when something is not clear.

Nevertheless, some key administrative and financial management areas need to be addressed.
Representation funds were used for parties that appeared to be of a personal nature as well as bulk
alcohol purchases, not allocated to specific events, contrary to Commercial Service guidelines. Motor
vehicle usage also did not appear to comply with regulations. Specifically, some personal use of the
vehicles occurred, but the vehicle logs were not adequately completed to enable us to determine the
extent of such use. We also learned that supervisors were unaware that an officer was delinquent in
paying a government-issued travel card by nearly five months, resulting in the card being cancelled. In
addition, we found problems with the petty cash fund in Izmir that require better oversight by the SCO
and commercial attaché. Finally, the post is effectively managing its use of the State Department’s
support services, International Cooperative Administrative Support Services (ICASS). Specifically, in
recent years, the post has reduced both its usage of ICASS and the number of ICASS services it is
participating in. However, we were able to identify a few categories where cuts could be made to
further reduce ICASS costs.

A. 	     CS guidelines for representation funds were not always followed

Commercial Service guidelines were not always followed for the use of representation funds during
fiscal years 2001 and 2002. Specifically, most of the $7,900 in representation funds was used for
various parties that appear not to be of an official nature and bulk alcohol purchases, which were not
allocated to specific events, as required by Commercial Service guidelines, as well as four farewell
parties for departing staffers, which are discouraged by the guidelines. Representation funds are
expressly limited by Congress and are to be used for official overseas entertainment that furthers ITA’s
mission objectives. Commercial Service guidelines require that there must be a clear demonstration that
representation fund expenditures directly promote U.S. foreign policy interests and are not for personal
recreation. Further, the guidelines state that employees should know the difference between “social
entertaining” and “official representation.”


                                                   40

U.S. Department of Commerce                                                          Final Report IPE-15370

Office of Inspector General                                                                     March 2003



The Foreign Affairs Manual and the CS Operations Manual provide guidance on the use of
representation funds to be followed by personnel. In general:

    �   The U.S. presence, official and private, should be less than half the total guest list. In addition,
        representation events should reflect a good amount of host country or foreign guests in
        attendance. As a target, 50 percent of the guest list should consist of foreign nationals,
    �   Smaller events are preferable to larger ones,
    �   Expenditure of representation funds on gifts for departing colleagues or contacts is not an
        effective use of funds,
    �   The cost of bulk liquor purchases cannot be claimed in lump sum but must be allocated to
        specific representational events,
    �   Representation funds are not to be used to maintain morale by providing hospitality for
        Commercial Service staff, and
    �   Repetitive entertainment of the same individuals should be avoided.

In addition to the aforementioned guidelines, on February 1, 2000, the Deputy Assistant Secretary for
International Operations at the time, sent an e-mail to all Commercial Service employees, that included
“standard practices” that every Commercial Service employee overseas should make part of standard
operating procedure. This e-mail specifies that the purpose of representation funds should be to
develop new contacts and deepen existing relationships, rather than to say goodbye to departing
employees.

CS Turkey’s representation budget for fiscal year 2001 was $3,500. Of that amount, we identified
$2,257, or 64 percent, that we believe was not spent properly or in accordance with Commercial
Service guidance. For example, two farewell parties were hosted for departing staffers. On April 18,
2001, approximately $500 was spent on a farewell reception for the departing PCO in Istanbul, and on
September 25, 2001, a farewell reception for a retiring FSN was held, costing nearly $700. Lastly, on
October 24, 2000, and September 29, 2001, two bulk purchases of alcohol were made, which totaled
$1057. This practice is not allowed under Commercial Service guidelines unless the liquor purchased is
allocated to specific representational events, which did not occur.

CS Turkey’s representation budget for fiscal year 2002 was increased to $4,400. Of that amount, we
identified $2,399, or 54 percent, that does not appear to have been spent in accordance with
Commercial Service guidance. Specifically, on April 6, 2002, a Commercial Service officer and his
wife hosted a reception at their residence, which cost over $1,600. The invitations for the event made
no mention of the host’s official position, the Commercial Service, or the U.S. embassy—they simply
stated the officer’s name and his wife’s name as the host and hostess. According to the guest list
submitted, only 29 of the 74 guests, or 39 percent, were Turkish. The remaining guests consisted of
American embassy employees, Commercial Service staff, and foreign diplomats from other embassies.

                                                     41

U.S. Department of Commerce                                                          Final Report IPE-15370

Office of Inspector General                                                                     March 2003



Generally, foreign diplomats are not invited to official receptions with key contacts because of the risk of
sharing crucial government contacts with competitors. Usually, the only function where foreign
diplomats are invited to attend are welcome receptions to introduce new Commercial Service officers to
the local diplomatic community. In discussions with us about this event, the Commercial Service officer
who hosted the event felt that it was a very effective and appropriate use of representation funds.

Representation funds were also used to host two farewell receptions in 2002. These parties cost a total
of $778. While the use of representation funds for farewell parties is discouraged by the guidelines set
forth in the CS Operations Manual, the e-mail from the former Deputy Assistant Secretary for
International Operations in February 2000, specified that the purpose of representation funds should be
to develop new contacts and deepen existing relationships, rather than to say goodbye to departing
employees.

To correct these deficiencies, we recommend that the Commercial Service determine whether
representation funds were misused and take appropriate action.

Lastly, our review revealed some inconsistencies and confusion surrounding the Commercial Service’s
guidelines governing the appropriate use of representation funds. For example, although Commercial
Service officers are aware that the 50-percent rule on invitees refers to host country guests, the CS
Operations Manual does not explicitly state this fact and leaves room for misinterpretation. We
understand that there might need to be some exceptions to this rule, such as for welcome receptions,
etc., but these exceptions need to be clearly set forth in the Manual. Thus, we recommend that the CS
Operations Manual be updated and clarified to more clearly reflect the Commercial Service’s
representation fund policies, particularly with regard to the 50-percent rule and the use of representation
funds for farewell parties, so that there is no confusion or room for misinterpretation. Any changes in
policy regarding proper and improper use of these funds should be sent out as a directive to all SCOs.




The Assistant Secretary and Director General of the U.S. and Foreign Commercial Service’s response
to our draft report stated that information about the representation events identified in our report will be
reviewed.

In response to our finding about the lack of clarity and inconsistencies in the policy on the use of
representation funds in the CS Operations Manual, the Director General stated that the Office of
Planning is currently editing and updating the Manual to include the changes recommended in our
report. In addition, the Director General indicated that the Deputy Assistant Secretary for International
Operations is finalizing a memo to all Commercial Service officers to remind them of their responsibilities
regarding the proper use of representation funds. While we have not reviewed the proposed changes to

                                                     42

U.S. Department of Commerce                                                                 Final Report IPE-15370

Office of Inspector General                                                                            March 2003



the CS Operations Manual or the memo to the officers, we believe that these steps should be
responsive to our recommendation, especially if the new policy clarifies the 50 percent foreign national
rule and other ambiguities in the current policy. We request that the Commercial Service provide a
copy of these documents with its action plan in response to the final report.

B.       Motor vehicle usage did not comply with CS policies

At the time of our visit, CS Turkey had three government-owned vehicles, with a fourth vehicle
expected to arrive shortly after our departure. Two are located in Ankara and one in Istanbul. The
new vehicle will be going to Istanbul. We reviewed the vehicle logs in both locations to ensure that the
vehicles were being used appropriately and in accordance with all applicable policies and regulations.

In Ankara, while the logs meticulously tracked the odometer readings, as well as the points of departure
and destination, the logs did not include dates. Further, although the logs listed all trips as official usage,
some trips appeared to be of a personal nature. For example, the log includes several trips to a Turkish
home furnishings store, as well as numerous trips (sometimes two trips in the same day) between the
embassy and an officer’s residence.14

In Istanbul, contrary to Commercial Service policy, there was no vehicle log maintained until mid-July
2002, two months before our visit. Prior to July, a log was kept only for about one month in August
2001, at the Regional Director for Europe’s direction. Based on our review of the limited logs, vehicle
usage in Istanbul appears appropriate.

The vehicle logs used during fiscal years 2001 and 2002, in both Ankara and Istanbul, gave the
driver—not the passenger—the responsibility to certify whether the car usage was official or personal.
This puts the Commercial Service drivers in the difficult position of having to ascertain whether a trip by
their superiors is official. We believe that this is not an effective internal control.

Title 31 of the United States Code, Section 1344 (a) prohibits the use of a government-owned or
leased vehicle for other than official purposes. With rare exceptions, the term “official purposes”
specifically excludes transportation of officers or employees between their places of residence and place
of employment, or any other place of business. The CS Operations Manual also expressly prohibits
any personal use of a Commercial Service vehicle unless highly unusual circumstances present a clear
and present danger, an emergency exists, or when other compelling operational considerations make
such transportation essential to the conduct of official business. In addition, according to Department
Administrative Order 202-751, the penalty for the use of or allowing the use of government motor


14
  While dates were not included in the logs, the logs specifically stated departure and destination as “embassy to
residence two times” as one entry.
                                                         43

U.S. Department of Commerce                                                       Final Report IPE-15370

Office of Inspector General                                                                  March 2003



vehicles for other than official purposes ranges from a mandatory 30-day suspension for the first offense
to removal. The Order also states that each situation shall be considered on its own merits.

We reviewed the mission’s vehicle usage policy that was effective during the period of our review and
found that it did not cite any exceptions to the standard regulations. The CS Operations Manual also
states that the SCO and PCO have the following responsibilities for government-owned vehicles:

    �   Adherence to post policy for authorized use as established by the Chief of Mission,
    �   Maintenance of the Daily Use Record (vehicle usage log),
    �   Preparation and submission of annual vehicle inventory,
    �   Vehicle maintenance and repairs and safety inspections, and
    �   Coordination of vehicle replacement and disposal with HQ and post personnel.

Moreover, the CS Operations Manual differentiates between appropriate and inappropriate use of
drivers. Specifically, appropriate use of drivers includes:

    �   Transportation of officers and staff to official business functions,

    �   Courier service for official trips of Commercial Service personnel,

    �   Airport/hotel pickup when local transportation is not safe or appropriate, and

    �   Transportation of temporary duty personnel when local transportation is not safe or appropriate.


Inappropriate use of drivers includes transportation between office and residence or vice versa, usage
outside of normal business hours, for personal use, and use by dependents.

To ensure compliance with law and Commercial Service policy, we recommend that the vehicle logs in
Ankara be reviewed to determine whether usage was in accordance with government policies. If not,
the Service should take appropriate action. In addition, the Commercial Service should reiterate to all
SCOs its policy on the use of government-owned vehicles, including the prohibition of personal use and
maintenance of an accurate and complete vehicle log. Finally, the Commercial Service needs to ensure
that its policies are consistently followed.

Based on our discussions while at post, the new SCO has taken steps to ensure that vehicle logs are
properly maintained for all vehicles in both Ankara and Istanbul. He has approved use of a new log that
includes dates and requires the passenger—not the driver—to certify whether the usage is official or
personal. A log is to be completed for each vehicle on a daily basis, and the SCO and PCO will review
the logs periodically to ensure that they are being accurately completed, as required by Commercial
Service policy.



                                                   44

U.S. Department of Commerce                                                        Final Report IPE-15370

Office of Inspector General                                                                   March 2003



Finally, since the end of our fieldwork, Istanbul received its new vehicle. The older car in Istanbul, a
Ford Explorer, appears to be having some maintenance problems. The PCO stated that she would like
to keep both cars because of the many visitors to Istanbul, and to haul luggage so the new vehicle can
remain in good condition. We suggested that the current SCO and PCO review the costs associated
with keeping the older vehicle, determine whether it was necessary to maintain two vehicles in Istanbul,
and surplus or transfer the vehicle to another post or agency if keeping it cannot be justified.




In responding to our draft report, the Director General stated the Service is reviewing the vehicle logs to
determine whether usage was official or personal. We ask that the Commercial Service advise us of
any actions taken in this matter.

With regard to our recommendation to remind SCOs and PCOs of the policies governing use of
government-owned vehicles, the Director General stated that assurance that official vehicles are not
being used for personal use is included in the SCO Administrative Certification, a new tool that OIO
management implemented in early fiscal year 2003, to help SCOs better manage their posts. She also
stated that the Regional Director for Europe and the Deputy Assistant Secretary for International
Operations have emphasized via emails to Commercial Service Turkey, as well as all Europe posts,
how important it is to adhere to Commercial Service policies, and reiterated the official vehicle usage
policy. Additionally, the Deputy Assistant Secretary for International Operations will include this
subject in the series of administrative reminders that are sent to all officers and posted on the
Commercial Service intranet website. We believe that the Commercial Service’s actions, as outlined in
its response, are responsive to our recommendation.

As far as maintaining complete vehicle logs in Turkey, the Commercial Service’s response to the draft
report stated that the new SCO has already implemented this recommendation in Ankara and Istanbul.
And, finally, the Commercial Service agreed with our recommendation to review the costs associated
with keeping the Ford Explorer in Istanbul and stated that, as a result, post will either transfer the
second vehicle to another agency or sell it in Istanbul as soon as the formalities are completed.

C.      Travel card statements need to be sent to the appropriate supervisors

As part of our inspection, we reviewed all of the government-issued travel card records for the
American officers at post and determined whether they had followed established procedures for the
travel card program. All officers were current on their travel card payments at that time. However, one
officer had not paid a travel card bill of over $13,000, for a period of nearly five months in 2002, and as
a result, the officer’s travel card was cancelled in July 2002. The delinquent charges were paid in three
payments between July and September 2002.

                                                    45

U.S. Department of Commerce                                                       Final Report IPE-15370

Office of Inspector General                                                                  March 2003



We also found that the officer’s supervisors were unaware of the delinquency and had not followed the
ITA policy, which prescribes specific penalties for travel cardholders who are delinquent in paying their
accounts. Clearly it is important for direct supervisors to be aware of such infractions so that they may
work with the employee to ensure bills are paid in a timely manner. While ITA administrative staff in
Washington, DC, were aware of the infraction and notified Commercial Service top management, this
information did not get to the officer’s immediate supervisors. To correct this problem, we recommend
that the Commercial Service work with ITA staff responsible for overseeing the travel card program to
ensure that notices of non-payment of travel card charges are sent to the officers’ immediate
supervisors, including the appropriate Regional Director and, for PCOs and other junior officers, also
the SCO.




In her response to our draft report, the Director General stated that the Regional Director for Europe
sent a Europe-wide message to all commercial officers on December 20, 2002, outlining the Federal
Travel Regulations and the penalties involved for cardholders who are delinquent in making payments to
their Citibank travel card account.

With regard to our recommendation on ensuring that delinquent travel card notices are sent to the
appropriate supervisors, the Director General stated that OIO now has an agreement with the Office of
Organization and Management Support to give the Deputy Assistant Secretary for International
Operations and all four Regional Directors a copy of the delinquent officers’ travel card list.
Additionally, the Director General indicated that OIO has asked the Office of Foreign Service Human
Resources to include OIO on the distribution list for reports on delinquent employee travel card
accounts. We believe that the Commercial Service’s new agreement with the Office of Organization
and Management Support is a positive step toward informing supervisors of payment problems
involving employee travel card bills. Such actions meet the intent of our recommendation.

D.      Better oversight is needed for Izmir’s petty cash fund

CS Turkey is effectively managing the petty cash funds maintained in the Ankara and Istanbul offices.
At both locations, we reviewed internal controls and management procedures, and conducted a cash
count. We found petty cash funds were properly balanced, expenditures were supported with original
receipts and for appropriate expenses, and replenishment vouchers were submitted as required. Petty
cash funds were also physically safeguarded in both locations.

We did, however, note significant problems with the petty cash fund in Izmir. Specifically, the FSN in
Izmir set up an official bank account during 2001 for the petty cash fund. According to the FSN, this
was done to make bill paying easier and to facilitate direct deposit for replenishments from Ankara.

                                                   46

U.S. Department of Commerce                                                        Final Report IPE-15370

Office of Inspector General                                                                   March 2003



However, since the official account was opened, the FSN has co-mingled her personal funds with
official funds to make up frequent shortfalls in the petty cash account. Further, the embassy’s budget
and fiscal office in Ankara has routinely and erroneously deposited the FSN’s personal travel
reimbursements and other miscellaneous items—which should have been deposited to her personal
account—into the official account. The FSN stated that no one had ever contacted the budget and
fiscal office to correct this problem. Additionally, she stated that no American officer had ever
performed a verification of the petty cash fund.

The CS Operations Manual requires that an American officer perform periodic, unannounced
verifications of petty cash funds at least once each month. Commercial officers from Ankara oversee
the Izmir operation, and as such, they travel occasionally to Izmir in conjunction with post operations
and events, although not necessarily monthly. However, despite the fact that officers occasionally
traveled to Izmir, periodic petty cash fund checks did not occur. While we noted no problems with the
payments made from the petty cash fund, both the co-mingling of funds and the lack of outside, required
verification by an American officer are internal control weaknesses.

During our review, we contacted the budget and fiscal officer and notified him of the erroneous
deposits. He was not aware of the problem and noted that there were two different account numbers
for the official account and the FSN’s personal account. He stated that, in the future, the budget and
fiscal office would try to differentiate between the FSN’s personal and official payments.

No American officer had performed a periodic verification of Izmir’s petty cash fund in the last five
years. The former SCO traveled to Izmir on a quarterly basis, however, he stated that although he
knew that periodic cash counts were required, there were other priorities during his visits. We
recommend that the new SCO or commercial attaché perform unannounced, periodic reviews of CS
Izmir’s petty cash fund, as required by Commercial Service policy. Since it is not feasible to conduct
these checks monthly, the checks should coincide with commercial officer visits to Izmir.




In response to our recommendation, the Director General stated that the new SCO has already
implemented internal controls to ensure that Izmir’s petty cash fund is periodically reviewed and there is
no co-mingling of funds. These actions meet the intent of our recommendation.

E. 	    Post actively manages its ICASS participation, but further steps can be taken to
        reduce ICASS charges

ICASS is the State Department’s platform to provide administrative services to government agencies
overseas based on an equitable distribution of costs. It is essentially a cost-sharing system. The

                                                    47

U.S. Department of Commerce                                                        Final Report IPE-15370

Office of Inspector General                                                                   March 2003



objectives of ICASS are to (1) obtain quality services at the lowest cost, (2) encourage use of the best
and most economical service provider, (3) provide participating agencies with a greater voice in the
administrative decision-making process, (4) provide a transparent system of cost-sharing and
reimbursement for services, and (5) ensure user satisfaction. The services are usually provided by the
State Department’s Administrative Section at post, which includes the personnel office, budget and
fiscal office, general services office, information management office, medical unit, and security office.

A local ICASS Council has the authority to manage the resources dedicated or allocated to shared
administrative support activities. Similar to a corporate board of directors, the Council is responsible
for overall management including the cost effective use of resources, the selection of service providers,
the establishment of customer service standards, and the setting of priorities for the delivery of
administrative services. The commercial attaché is the ICASS Council Chairman in Ankara. During our
time at post, we attended an ICASS Council meeting and noted that the commercial attaché effectively
managed the meeting and discussion of important issues.

CS Turkey’s ICASS bills for fiscal years 2001 and 2002 were $266,323 and $291,677, respectively.
We found that these amounts are significantly higher than those at other Commercial Service posts in
Europe. But, upon reviewing documentation at post, we concluded that there are simply some higher
operating costs in Turkey, such as for increased security. Based on our review, we determined that one
way post could reduce its ICASS bill is by obtaining and using credit cards for more purchases.
Increasing credit card usage enables posts to reduce ICASS charges by submitting fewer vouchers to
the embassy for processing. In addition, DOC policy states that the purchase card should be used
whenever possible in making small purchases for official business. Previously, only the former SCO had
a purchase card, which was not used very often.

The new SCO has directed the PCO and commercial attaché to each apply for a $25,000 limit
purchase card and the administrative assistants in Ankara and Istanbul to apply for $2,500 limit cards.
Both the administrative assistants and the commercial attaché have already completed the required
online training necessary for obtaining a credit card. However, despite numerous requests from the
SCO, the PCO has not yet taken the training, which takes approximately one hour to complete. When
we questioned the PCO about the training during our visit, she told us that other tasks have prevented
her from finding the time to take the training. Subsequent to our visit, the PCO told us that she tried
several times to take the training, but found the website for the training was not functioning.

However, we question whether a $25,000 limit card is needed in Istanbul and suggest that the PCO
should only serve as the approving official for the administrative assistant’s $2,500 limit purchase card.
In discussing this issue with the new SCO, he stated that a $2,500 purchase card should be sufficient for
Istanbul’s purposes. But, it is still necessary for the PCO to take the mandatory training so that she can


                                                   48

U.S. Department of Commerce                                                         Final Report IPE-15370

Office of Inspector General                                                                    March 2003



serve as the approving official for the administrative assistant. Therefore, the post cannot begin to
reduce its ICASS charges until the PCO takes the training.

Currently, ICASS charges to process each voucher are $29 in Ankara and $46 in Istanbul. Since the
ICASS costs in Istanbul are nearly double those in Ankara, it is important that the PCO follow the
SCO’s direction in this matter. Also, CS guidelines encourage posts to use credit cards as much as
possible to purchase office supplies, for small procurements, and other purchases.

The post can also reduce ICASS charges by increasing its petty cash fund amount and using it to pay
for small purchases. The commercial attaché has already asked the budget and fiscal office to increase
the Ankara petty cash fund from 400,000,000 Turkish lira to 1,000,000,000 (approximately $400).
This should enable the post to further reduce its ICASS bill because the number of vouchers submitted
will be reduced. Lastly, the post is currently paying approximately $1,300 annually for two warehouse
storage units in Ankara and Istanbul. CS Turkey staff told us that these storage units contain mainly
obsolete furniture and equipment. We recommend that the new SCO inventory these storage units and
determine whether they are necessary. If the SCO determines that the storage units are not needed, the
post should surplus, sell, or discard the items in storage and opt out of this ICASS service. Also, as
discussed above, we recommend that the PCO take the on-line training immediately.




The Director General, in responding to our draft report, stated that CS Turkey has inventoried the two
storage units and has decided to sell or dispose of the majority of the contents. Once the sale is
completed, the post will opt out of this cost center. These actions meet the intent of our
recommendation.

In response to our recommendation that the PCO immediately take the on-line procurement training, the
Director General stated that the PCO successfully completed this training on December 26, 2002, and
will only act as the approving official for a $2,500 purchase card. These actions meet the intent of our
recommendation.




                                                    49

U.S. Department of Commerce                                                         Final Report IPE-15370

Office of Inspector General                                                                    March 2003



                                      RECOMMENDATIONS


To strengthen CS Turkey operations and the management of posts worldwide, we recommend that the
Assistant Secretary and Director General of the United States and Foreign Commercial Service take
appropriate steps to:

(1) 	   Ensure that OIO managers or staff visiting a post in an oversight role prepare trip reports
        highlighting relevant issues, which post operations were reviewed, and any issues or concerns
        that need attention. Discuss any issues or concerns of a more serious nature with the SCO
        and/or other responsible officers at post, as well as document them in officer performance
        appraisals, if warranted. Track matters requiring follow-up action by the post and/or
        headquarters until completion (see page 7).

(2)	    Ensure that officers assigned to SCO positions, are adequately prepared for their assignments.
        To accomplish this, OIO should (1) provide its junior officers with the types of assignments that
        will help them develop into well rounded senior officers, (2) require officers to attend
        management and finance and administrative training, prior to being assigned as an SCO, (3)
        include training requirements in officers’ performance plans to ensure that necessary training is
        taken, and (4) consider creating a mandatory online training course on the basics of post
        management (see page 7).

(3) 	   Reemphasize to SCOs and PCOs the importance of consistently following personnel policies,
        completing FSN performance appraisals when they are due, and recommending deserving staff
        for awards when appropriate. In addition, OIO staff should check with each post’s personnel
        office on an annual basis to verify that all FSN performance appraisals have been submitted and
        determine whether there are other CS-related personnel issues (see page 11).

(4)	    Petition the State Department’s Overseas Building Operations office to reconsider its plan and
        research other options for improving the security of the annex building in Ankara (see page 17).


(5) 	   Prepare an emergency evacuation plan and bomb threat procedures for the Izmir office and
        conduct a security review of the Izmir office to ensure that it meets current security standards
        (see page 17).

(6)	    Ensure that the Regional Director for Europe provides more management oversight to CS
        Turkey and monitors its performance with regard to core products, services, and export
        successes (see pages 21, 24, and 30).


                                                    50

U.S. Department of Commerce                                                         Final Report IPE-15370

Office of Inspector General                                                                    March 2003



(7)	    Ensure that the contractor hired by the Commercial Service to review export successes take
        random samples of export successes (not just those that look suspect) on a periodic basis to
        help ensure the accuracy of all export successes (see page 30).

(8) 	   Correct the export success database for CS Turkey by revising it to eliminate the problematic
        export successes contained in this report (see page 30).

(9)	    Change the Commercial Service Operations Manual to explicitly require that all export
        successes are confirmed with the U.S. client (see page 30).

(10) 	 Determine whether representation funds were misused and if so, take appropriate action (see
       page 40).

(11) 	 Revise the Commercial Service Operations Manual to more accurately reflect the
       Commercial Service’s position on usage of representation funds so that there is no room for
       misinterpretation. These changes should deal with the proper and improper use of
       representation funds and should be sent out as a directive to all SCOs (see page 40).

(12) 	 Review the vehicle logs in Ankara to determine whether usage was in accordance with
       government policies. If not, take appropriate action (see page 43).

(13) 	 Remind SCOs and PCOs of the Commercial Service’s policy on the use of government-owned
       vehicles, including the prohibition on personal use and the requirement to maintain an accurate
       vehicle log. In addition, remind them of the administrative penalties for misuse of official vehicles
       that are contained in departmental policy. Ensure that the policy is followed (see page 43).

(14)	   Work with ITA staff responsible for overseeing the travel card program to ensure that notices of
        non-payment of travel card charges are sent to officers’ immediate supervisors, including the
        appropriate Regional Director and, for PCOs and other junior officers, also the SCO (see page
        45).

To deal with the issues specific to CS Turkey’s former SCO, we recommend that the Assistant
Secretary and Director General of the United States and Foreign Commercial Service take appropriate
steps to:

(1) 	   Ensure that the former SCO is reminded that as an SCO, he needs to (a) ensure the quality and
        timeliness of a post’s products and services and (b) ensure due diligence in the review of export
        successes. In addition, we suggest that the Regional Director for Europe and the Regional
        Director covering the area of the former SCO’s next posting spend time with

                                                    51

U.S. Department of Commerce                                                          Final Report IPE-15370

Office of Inspector General                                                                     March 2003



        the former SCO to identify and address those weaknesses that might adversely affect his ability
        to effectively and efficiently manage subsequent posts (see pages 21, 24, and 30).

To improve the current and future operations of CS Turkey, we recommend that the post’s new SCO
take appropriate steps to:

(1) 	   Work with the commercial attaché and PCO to complete new job descriptions for the two
        administrative assistants to reflect their current duties and responsibilities and submit them to the
        embassy’s Human Resources Officer for review and classification (see page 17).

(2) 	   Work closely with the commercial attaché in Ankara, the PCO in Istanbul and FSN staff to
        improve the quality and timeliness of CS Turkey’s products and services. In addition, the SCO
        should consider (a) formal training for all staff on customer care and (b) establishing a mentoring
        system among FSN staff where more successful FSNs can be a resource to less experienced
        FSNs (see page 21).

(3) 	   Monitor the quality of ISAs produced and direct the commercial attaché and PCO to work
        more closely with FSN staff to provide mentoring and ensure consistency in the quality of all
        ISAs produced (see page 24).

(4) 	   Monitor the production of IMIs at the post to ensure that production goals are met and work
        with the commercial attaché and PCO to ensure that all staff understand the IMI product, its
        importance, and that it can be used to report more than just major project opportunities (see
        page 24).

(5)	    Closely monitor the number of products and services ordered by customers and consider
        additional outreach events, which target small- and medium-sized firms, to generate interest in
        the post’s products and services, if necessary (see page 28).

(6) 	   Read, review, and approve each export success and require appropriate due diligence in the
        reporting of export successes. This includes verifying export successes with the U.S.
        company and not just the Turkish importer, distributor, or partner. In addition, ensure that the
        FSNs more effectively capture export successes from trade events and initiatives (see page 30).


(7) 	   Reevaluate the post’s trade promotion program to ascertain whether there should be a better
        balance in the time and resources devoted to trade events and initiatives, including those that are
        mandatory, which do not result in export successes (see page 30).


                                                     52

U.S. Department of Commerce                                                       Final Report IPE-15370

Office of Inspector General                                                                  March 2003



(8)	    Surplus or transfer the Ford Explorer in Istanbul to another post or agency since it has been
        determined that keeping it cannot be justified (see page 43).

(9) 	   Ensure that the daily vehicle logs are appropriately maintained in Ankara and Istanbul (see page
        43).

(10)	   Ensure that proper internal controls for the Izmir office’s petty cash fund are implemented and
        that there is no co-mingling of funds (see page 46).

(11)	   Inventory the two storage units in Ankara and determine whether they are necessary. If they
        are not, the post should surplus, sell, or discard any unneeded items and opt out of this ICASS
        service (see page 47).

(12) 	 Ensure that the PCO in Istanbul takes the on-line training on procurements immediately (see
       page 47).




                                                   53

   U.S. Department of Commerce                                                       Final Report IPE-15370

   Office of Inspector General                                                                  March 2003



                                               APPENDIX A

                  Acronyms and Descriptions of Commercial Service Products and Services

CMA	       A Customized Market Analysis provides U.S. firms with an assessment of how their product or service
           will sell in a given market.

FMR	       The Flexible Market Research service is designed to meet the specific needs of clients. FMRs
           provide customized market research to answer questions about a particular market and its receptivity to
           targeted products and services.

GKS	       The Gold Key Service provides U.S. clients with one-on-one appointments with potential
           business partners identified and selected by US&FCS in a targeted export market.

IMI	       International Market Insights are brief reports on specific foreign market conditions and
           upcoming opportunities for U.S. businesses.

IPS	       The International Partner Search service provides the requestor with potential partners to market
           their product or service in a given area. It has a fast response time of a maximum of 15 working days.

ISA        The Industry Sector Analysis product provides information on specific industries, such as market
            potential, demand trends, market size, competition, market access information, regulations, distribution
           practices, and key contacts.

PKS	       The Platinum Key Service provides a firm with ongoing, customized support for a specified time
           frame, scope, and fee. The service is tailored to a client’s needs, providing counseling and information,
           such as identifying markets, launching products, developing project opportunities, finding partners,
           helping to reduce market access barriers, and assisting on regulatory or technical standards matters.

IBP	       The International Buyer Program promotes key U.S. trade shows to international business
           executives. The program brings international buyers each year to meet with U.S. companies at major
           U.S. trade shows.

BuyUSA	 This business to business website connects foreign buyers with qualified US suppliers of goods
        and services (www.buyusa.com).

CNUSA	 This publication is distributed worldwide to foreign buyers and features the products and
       services of participating U.S. suppliers on a monthly basis.


                                                      54
U.S. Department of Commerce                                     Final Report IPE-15370

Office of Inspector General                                                March 2003



                                       APPENDIX B


                              Agency Comments on Draft Report




                                            55

U.S. Department of Commerce         Final Report IPE-15370

Office of Inspector General                    March 2003





                              56

U.S. Department of Commerce         Final Report IPE-15370

Office of Inspector General                    March 2003





                              57

U.S. Department of Commerce         Final Report IPE-15370

Office of Inspector General                    March 2003





                              58

U.S. Department of Commerce         Final Report IPE-15370

Office of Inspector General                    March 2003





                              59

U.S. Department of Commerce         Final Report IPE-15370

Office of Inspector General                    March 2003





                              60

U.S. Department of Commerce         Final Report IPE-15370

Office of Inspector General                    March 2003





                              61

U.S. Department of Commerce         Final Report IPE-15370

Office of Inspector General                    March 2003





                              62

U.S. Department of Commerce         Final Report IPE-15370

Office of Inspector General                    March 2003





                              63

U.S. Department of Commerce         Final Report IPE-15370

Office of Inspector General                    March 2003





                              64

U.S. Department of Commerce         Final Report IPE-15370

Office of Inspector General                    March 2003





                              65

U.S. Department of Commerce         Final Report IPE-15370

Office of Inspector General                    March 2003





                              66

U.S. Department of Commerce         Final Report IPE-15370

Office of Inspector General                    March 2003





                              67

